<html>
<title> - HEARING TO REVIEW IMPLEMENTATION OF FARM BILL CONSERVATION PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
  HEARING TO REVIEW IMPLEMENTATION OF FARM BILL CONSERVATION PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2020

                               __________

                           Serial No. 116-29
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                         
                         ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-599 PDF           WASHINGTON : 2020 
                          
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               JAMES COMER, Kentucky
CHERI BUSTOS, Illinois               ROGER W. MARSHALL, Kansas
SEAN PATRICK MALONEY, New York       DON BACON, Nebraska
SALUD O. CARBAJAL, California        NEAL P. DUNN, Florida
AL LAWSON, Jr., Florida              DUSTY JOHNSON, South Dakota
TOM O'HALLERAN, Arizona              JAMES R. BAIRD, Indiana
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa
----

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     4
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    11
Schrier, Hon. Kim, a Representative in Congress from Washington:
    Submitted article............................................    31
    Submitted letters............................................    33
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

Lohr, Hon. Matthew J., Chief, Natural Resources Conservation 
  Service, U.S. Department of Agriculture, Washington, D.C.......     5
    Joint prepared statement.....................................     6
    Submitted questions..........................................    36
    USDA submitted questions.....................................    45
Fordyce, Hon. Richard, Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, D.C.....................     9
    Joint prepared statement.....................................     6
    Submitted questions..........................................    42
    USDA submitted questions.....................................    45


  HEARING TO REVIEW IMPLEMENTATION OF FARM BILL CONSERVATION PROGRAMS

                              ----------                              


                       TUESDAY, JANUARY 28, 2020

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, Fudge, 
O'Halleran, Axne, Schrier, Peterson (ex officio), LaMalfa, 
Johnson, and Conaway (ex officio).
    Staff present: Prescott Martin III, Felix Muniz, Jr., Anne 
Simmons, Alison Titus, Josh Maxwell, Ricki Schroeder, Patricia 
Straughn, Dana Sandman, and Justina Graff.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry to review implementation of farm bill conservation 
programs will come to order.
    Good morning. I would like to welcome everyone and thank 
you all for joining us today as we review USDA's implementation 
of the 2018 Farm Bill conservation programs.
    In 2018, this Committee reauthorized the farm bill and 
amended several of the conservation programs. Farmers in my 
district in central Virginia know how important these 
conservation programs are, because they use them to boost soil 
health, improve water quality, protect wildlife habitat, and 
reduce soil erosion. And by doing so, they can improve their 
crop quality and increase their crop yields, all while better 
adapting to and mitigating the impacts of climate change.
    We are now a year in, and we are watching as those 
conservation programs take shape. And I have been glad to see 
an increased focus on important issues like soil health, water 
quality, and water supply. Specifically, in the area of soil 
health, the farm bill boosts incentives for soil health 
practices like cover cropping, crop rotation, and advanced 
grazing systems, all of which are utilized in my central 
Virginia district. And a new Soil Health Demonstration Trial 
provides financial assistance for soil health and carbon-
related practices, continuing efforts to test new and 
innovative conservation approaches.
    One of the advancements made in the 2018 Farm Bill was the 
encouragement of conservation strategies at the local and 
regional level. You can appreciate how important that is to my 
district in the Chesapeake Bay Watershed and districts across 
the country. Our farmers in Virginia know what works for their 
land and for their ecosystems, the land that they have operated 
for generations, and they know it far better than anyone else.
    Through voluntary conservation programs like the ones we 
will talk about today, they are given more of a role in helping 
to expand clean water and soil strategies in their own 
operations.
    Now, our focus should be on implementation and watching to 
see what is working and what, if any, barriers there are to 
making sure that each of these programs is operating in a way 
that is consistent with what this Committee intended when it 
wrote the bill, and what the overall goals of the programs are. 
I look forward to receiving a candid look at those efforts, as 
well as a discussion of the agency's rulemaking process.
    But when we talk about implementation, we must also talk 
about the staff doing the implementing. Programs, no matter how 
good they are, or no matter how noble their goals may be, will 
only ever be as good as the people delivering them. And because 
of that, it is extremely important that both NRCS and FSA are 
operating at full staff to achieve program benefits. And in 
that regard, there are some serious questions about the ability 
of other USDA agencies to retain and empower staff to achieve 
their mission, and I want to ensure that that isn't an issue at 
NRCS and FSA.
    Furthermore, it is just as important that NRCS and FSA 
staffers are enabled and equipped by their agencies to deliver 
these programs in a manner that is consistent with what we want 
them to achieve, and that means consistent and genuine 
engagement with farmers and landowners on the ground.
    We are not here today to challenge the Administration, bash 
the Administration, nor are we here today to greenwash the 
efforts already underway. We are here for an honest look at 
where we stand, what is working, what needs more time, and I 
look forward to hearing ideas from USDA and from my colleagues 
on how we do just that.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning, and thank you for joining us today as we review 
USDA's implementation of the 2018 Farm Bill conservation programs.
    In 2018, this Committee reauthorized the farm bill and amended 
several of the conservation programs. Farmers in my district in central 
Virginia know how important these conservation programs are, because 
they use them to boost soil health, improve water quality, protect 
wildlife habitat, and reduce soil erosion. By doing that, they can 
better adapt to and mitigate the impacts of climate change
    So, we're a year in and we're watching as those conservation 
programs take shape. I've been glad to see an increased focus on 
important issues like soil health, water quality, and water supply. 
Specifically, in the area of soil health, the farm bill boosts 
incentives for soil health practices like cover cropping, crop 
rotation, and advanced grazing systems. And, a new Soil Health 
Demonstration Trial provides financial assistance for soil health and 
carbon-related practices, continuing efforts to test new and innovative 
conservation approaches.
    One of the advancements made in the 2018 bill was the encouragement 
of conservation strategies at the local and regional level. You can 
appreciate how important that is to my district in the Chesapeake 
Watershed. Our folks know what works for their land and for the 
ecosystems they've operated in for generations far better than anyone 
else. Through conservation programs like the ones we'll talk about 
today, they're given more of a role in helping to expand clean water 
and soil strategies in their own operations.
    Now, our focus is on implementation and watching to see what's 
working, and what if any barriers there are to making sure each of 
these programs is operating in a way that is consistent with what this 
Committee intended when we wrote the bill, and what the overall goals 
of the program are. I look forward to receiving a candid look at those 
efforts, as well as a discussion of the agencies' rulemaking process.
    But when we talk about implementation, we must also talk about the 
staff doing the implementing. Programs, no matter how good they look on 
paper, or no matter how noble their goals may be, will only ever be as 
good as the people delivering them. Because of that, it's extremely 
important that both NRCS and FSA are operating at full staff to achieve 
program benefits. In that regard, there is serious question about the 
ability of other USDA agencies to retain and empower staff to achieve 
their mission, and I want to ensure that isn't an issue at NRCS and 
FSA.
    Furthermore, it's just as important that NRCS and FSA staffers are 
enabled and equipped by their agencies to deliver these programs in a 
manner that's consistent with what we want them to achieve. That means 
consistent and genuine engagement with farmers and landowners on the 
ground.
    We're not here today to bash the Administration, nor are we here to 
greenwash the efforts already underway. We're here for an honest look 
at where we stand, what's working, and what needs more time. I look 
forward to hearing ideas from USDA and from my colleagues on how we do 
that.

    The Chair. And with that, I would like to recognize the 
Ranking Member, the distinguished gentleman from California, 
Congressman LaMalfa.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Thank you, Madam Chair. Good morning. Thank 
you, panelists. I appreciate you, Chair Spanberger, for calling 
this hearing today to update and review on the implementation 
of these important conservation programs in the Agricultural 
Improvement Act of 2018.
    Over the course of 2019, we heard from many producers about 
the benefits of the conservation and the assistance they 
receive from the programs. I heard about many of the innovative 
conservation practices that California producers are 
implementing. We have, among many crops, \1/2\ million acres of 
rice in the northern part of the state, which is ideal for some 
of the habitat and conservation we are talking about, including 
building healthy soils through cover cropping and reducing 
inputs through the use of precision agriculture, are some of 
these practices.
    Additionally, when the Subcommittee reviewed the USDA 
programs last spring, we did receive a good update from USDA. 
We look forward to hearing more about the progress USDA is 
making in implementing 2018 Farm Bill conservation programs 
today.
    Congress has prioritized voluntary incentive-based 
conservation programs, which have achieved good bang for the 
buck over the years, and certainly over the last several farm 
bills, helping farmers and ranchers reduce soil erosion, 
protect wetlands and wildlife habitat, and improve water 
quality and quantity. In an effort to modernize the delivery of 
these programs, the 2014 Farm Bill made significant reforms 
consolidating over 20 conservation programs into 13, while 
preserving the fundamental goals of these conservation 
programs.
    In writing the 2018 Farm Bill it included efforts by the 
House Agriculture Committee to build upon these successes by 
streamlining, simplifying, and improving program 
administration. We also fought to protect mandatory funding in 
the conservation title.
    The 2018 Farm Bill includes more flexibility in the 
delivery of CSP, a significant increase in funding for both 
EQIP and ACEP, the establishment of Conservation Incentive 
Payments, and separate funding allocations for RCPP, as well as 
an increase in the acreage cap for CRP. In addition to these 
improvements, we made significant investments in 
infrastructure, emphasizing protection of drinking water 
sources, created the Feral Swine Eradication and Control Pilot 
Program, expanded Conservation Innovation Grants, the CIG.
    I am proud of what we have been able to accomplish as a 
Committee, and I am very proud of the farmers and ranchers who 
voluntarily participate in these conservation programs to 
preserve not only their land, but also their way of life.
    Thank you to our panelists again for being here today, 
Chief Lohr and Administrator Fordyce, for taking time to update 
us, and I thank each of you and your teams' support that was 
essential to writing the farm bill, and then ultimately helping 
the people in the field to implement it.
    Thank you, Chair Spanberger. I will yield back.
    The Chair. In consultation with Ranking Member and pursuant 
to Rule XI(e), I want to make Members of the Subcommittee aware 
that other Members of the full Committee may join us today.
    I would now like to recognize Ranking Member Conaway for an 
opening statement.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. I have no statement. Thank you very much.
    The Chair. Thank you. The chair would request that other 
Members submit their opening statements for the record so 
witnesses may begin their testimony, and to ensure that there 
is ample time for questions.
    I would like to welcome our witnesses today. Thank you very 
much for being here. It is my pleasure and privilege to welcome 
Mr. Matthew Lohr, the Chief of the Natural Resources 
Conservation Service at the United States Department of 
Agriculture. As Chief, Mr. Lohr provides leadership for NRCS 
and its mission to support America's farmers, ranchers, and 
forest landowners in their conservation efforts. Mr. Lohr is a 
fellow Virginian and a fifth-generation farmer, and prior to 
NRCS, Mr. Lohr served as Virginia's Commissioner of Agriculture 
and Consumer Services, and in the Virginia House of Delegates. 
Since 2017, he has farmed full-time on his family's operation, 
which includes poultry, beef cattle, row crops, and sweet corn.
    Our next and final witness is Mr. Richard Fordyce, the 
Administrator of the Farm Service Agency at the United States 
Department of Agriculture. As FSA Administrator, Mr. Fordyce 
provides leadership for FSA and its mission to support 
agricultural production across America through a network of 
over 2,100 county and 50 state offices. Mr. Fordyce is a 
fourth-generation farmer from Bethany, Missouri, and previously 
served as the State Executive Director for FSA in Missouri, and 
as Director of the Missouri Department of Agriculture.
    We will now proceed to hearing from our witnesses. Each of 
you will have 5 minutes to present testimony. When the light 
turns yellow, that indicates there is 1 minute left to complete 
your testimony.
    Chief Lohr, please begin when you are ready.

  STATEMENT OF HON. MATTHEW J. LOHR, CHIEF, NATURAL RESOURCES 
     CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Lohr. Good morning, and thank you, Chair Spanberger. I 
am one of those proud Virginian farmers you mentioned in your 
opening comments, so it is an honor to be here.
    Chairman Peterson, Ranking Members Conaway and LaMalfa, and 
Members of the Committee, good morning and thank you for this 
opportunity to testify today on USDA's Natural Resources 
Conservation Service, the programs that we deliver, the 
conservation.
    I know I speak for Secretary Perdue and Under Secretary 
Northey when I say that we appreciate the ongoing efforts of 
this Subcommittee for voluntary private lands conservation and 
the improvement of our natural resources. We are also grateful 
for the Committee for providing us the authority to implement 
our programs in 2019 through existing regulations.
    Since we visited last May, NRCS has been working hard to 
implement our farm bill programs. I am pleased to report that 
as of today, three of our four farm bill interim rules have 
been published, including the Agricultural Conservation 
Easement Program, or ACEP, Conservation Stewardship Program, or 
CSP, and the Environmental Quality Incentives Program, or EQIP. 
We have also published a miscellaneous rule that strengthens 
and streamlines our services delivered through the Healthy 
Forest Reserve Program, as well as expands the membership of 
our state technical committees.
    I am also pleased to announce that last night, we got 
clearance from OMB on the interim rules for our final farm bill 
program, the Regional Conservation Partnership Program, RCPP. I 
know there has been a lot of anticipation around this 
announcement, so the rules are being sent to the Office of the 
Federal Register today, and they should be published early next 
week for public comment.
    Following the publication of each of our interim rules, we 
invited agriculture and conservation stakeholders to our 
headquarters and held meetings to discuss the changes made to 
the programs. These meetings have been very constructive, and 
the feedback has been positive. So far, we have received over 
100 public comments to our CSP interim rule, expressing a 
desire for program support for both existing and new 
conservation activities. We expect to review our comments in 
response to EQIP and ACEP later this winter. And following the 
public comment for each of these interim rules, we will 
immediately begin developing final rule to publish sometime 
later in 2020.
    As we continue making progress towards full implementation, 
I wanted to highlight just a few of our 2019 accomplishments: 
$300 million was invested and made available under RCPP; $37\1/
2\ million was announced for the Feral Swine Control Pilot 
Program in partnership with USDA's APHIS; $37\1/2\ million was 
made available for both our Conservation Innovation Grants, or 
CIG, and the new CIG On-Farm Conservation Innovation Trials. 
Under CSP, our funds were used to cover 6.3 million new acres, 
bringing the total program acres to 53 million across 60,000 
contracts, and EQIP financial assistance obligations totaled 
over $1.2 billion for over 41,000 active contracts, covering an 
estimated 13 million acres.
    As all of us know, 2019 was filled with numerous disasters 
all across the nation. Through our Emergency Watershed 
Protection Program, or EWP, we provided over $330 million in 
assistance to communities, the recovery payments and floodplain 
easements. Also through our EQIP emergency funding, we provided 
$62 million in assistance to farmers, ranchers, and private 
forestland owners.
    I would also mention that last Friday, we launched the 
Conservation Assessment and Ranking Tool, or CART. Throughout 
2020, our staff will be working hard with customers throughout 
the country to utilize this tool which will help assess land 
conditions and resources concerns. The designs and improvements 
made by this tool will certainly enhance our customers' 
experience and streamline the application process over all of 
our programs, saving a significant amount of staff time each 
year.
    We recognize that we had challenges last year administering 
producer payments through CSP, but as a result of those 
challenges, we have begun revamping our internal processes to 
ensure that payments can be delivered efficiently and timely. 
As Chief, I am committed to making timely producer payments a 
top priority, and will continue to evaluate and make 
appropriate changes moving forward.
    Throughout 2019 and to now, balancing farm bill 
implementation with our program delivery has certainly been a 
heavy lift, but we could not have done it without the support 
of Under Secretary Northey and his team at the Business Center. 
His leadership has enabled us to advance our coordination 
efforts with the Farm Service Agency and the Risk Management 
Agency. NRCS and FSA continue to work very closely and 
collaboratively to address our customer concerns, especially in 
the delivery of Conservation Reserve Program, and provide 
excellent customer service to producers all across the nation.
    Madam Chair, this concludes my opening statement. I look 
forward to sharing more with you and the Committee, and 
certainly welcome your questions. Thank you for the invitation.
    [The joint prepared statement of Mr. Lohr and Mr. Fordyce 
follows:]

   Joint Prepared Statement of Hon. Matthew J. Lohr, Chief, Natural 
 Resources Conservation Service; Hon. Richard Fordyce, Administrator, 
 Farm Service Agency, U.S. Department of Agriculture, Washington, D.C.
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify about the United States Department of Agriculture's 
conservation programs administered through the Natural Resources 
Conservation Service (NRCS) and Farm Service Agency (FSA). We 
appreciate the ongoing support of this Subcommittee for voluntary, 
private lands conservation and the improvement of our soil, water, and 
other natural resources. We are also grateful to the Committee for 
providing us the authority to implement our programs in 2019 through 
existing regulations.
    We are pleased to report today that the NRCS and the FSA, under the 
leadership of Secretary Perdue and Under Secretary Northey, have made 
significant progress with the implementation of the conservation title 
of the Agriculture Improvement Act of 2018. We would like to provide 
you an update on the progress we have made on conserving resources on 
our nation's working lands.
    NRCS moved quickly to implement the 2018 Farm Bill provisions. 
Agency staff held dozens of meetings across the country to evaluate 
policy and prepare recommendations for improved services, develop 
streamlined directives, and draft the rules and associated analyses all 
while conducting sign-ups for a variety of conservation programs in 
2019. This could not have been accomplished without support from our 
dedicated staff, partners, and our customers.
    NRCS field offices held 2019 sign-ups and approved the contracts 
and agreements for the Agricultural Conservation Easement Program 
(ACEP), Conservation Stewardship Program (CSP), and the Environmental 
Quality Incentives Program (EQIP). Field offices concurrently serviced 
farm bill program contracts and agreements that were enrolled in prior 
years. Extensions for CSP and Regional Conservation Partnership Program 
(RCPP) agreements were offered to eligible participants.
    The 2018 Farm Bill required NRCS to revise its program rules and 
provided an opportunity to improve program implementation through the 
evaluation of how each can be used in conjunction with one another to 
improve efficiency. Four of the five interim rules have been published, 
including those for ACEP, CSP, and EQIP; and one we refer to as the 
``miscellaneous rule'' that streamlined minor changes to multiple rules 
in one Federal Register publication. The rules updated through the 
``miscellaneous rule'' include Technical Service Providers, Healthy 
Forests Reserve Program, Administration of State Technical Committees, 
Voluntary Public Access and Habitat Incentive Program, and the 
Watershed Protection and Flood Prevention Act program. The RCPP interim 
rule is expected to be published soon. Following public comment periods 
on each interim rule, NRCS will begin development of final rules that 
will publish sometime in 2020. Below are highlights of changes to our 
flagship programs and additional key components of the 2018 Farm Bill.
    Agricultural Conservation Easement Program (ACEP)--The 2018 Farm 
Bill added provisions to improve partnership implementation 
opportunities through reduced requirements on the ACEP Agricultural 
Land Easements (ALE) partners. For example, it removed a planning 
requirement, added buy-protect-sell provisions, and adjusted cash match 
requirements. The public comment period runs through March 20, 2020. In 
FY 2019, NRCS enrolled approximately 160,000 acres through over 450 new 
enrollments.
    Conservation Stewardship Program (CSP)--The 2018 Farm Bill 
reauthorized CSP through 2023 and changed the program from an acre-
based to a cash-based program. As required, we have been working to 
streamline the program and better align it with EQIP. Our improvements 
will result in more efficient programming whereby EQIP and CSP are 
complementary programs rather than competitors. The bill also added the 
CSP Grassland Conservation Initiative, simplified the ranking criteria, 
incentivized conservation activities such as cover crops, advanced 
grazing management and resource-conserving crop rotations, and 
continues support for organic production. The public comment period 
closed on January 13, 2020. We are evaluating comments and considering 
recommendations as we continue to review the program's procedures and 
guidelines internally to provide the best level of service to producers 
in subsequent years.
    Environmental Quality Incentives Program (EQIP)--The 2018 Farm Bill 
expanded program focus by adding ``weather volatility'' and ``drought 
resiliency'' to the list of program purposes. It expanded program 
enrollment opportunities for participants by inserting conservation 
incentive contracts as an enrollment option and special outreach for 
advance payments and subsequent election. It expanded the program's 
reach by adding eligible applicants to include ``water management 
entities'' identified as state, irrigation district, groundwater 
management district, acequia, and land-grant-merceds. Increased payment 
rates were also authorized for certain high-priority practices and 
source water protection. NRCS announced the availability of On[-]Farm 
Conservation Innovation Trials in 2019. Through these trials NRCS and 
partners will work together on the adoption of innovative practices 
with a specific focus on soil health strategies for carbon capture. The 
comment period for the EQIP rule closes February 17, 2020. In FY2019, 
EQIP financial assistance obligations totaled over $1.2 billion in 
41,471 active or completed contracts covering an estimated 12 million 
acres.
    Feral Swine Eradication and Control Pilot Program--The farm bill 
provided $75 million in mandatory funding for Fiscal Years 2019 through 
2023, and this funding is equally divided between NRCS and the Animal 
and Plant Health Inspection Service (APHIS) to carry out the pilot 
program. Pilot areas were identified collaboratively by NRCS and APHIS 
state personnel in consultation with the state technical committees.
    In this first year of the program, USDA has identified 20 pilot 
projects and has prepared for project implementation beginning in early 
FY 2020. These pilot projects have been identified in ten of the eleven 
states that APHIS determined have the highest density of feral swine. 
These states are: Alabama, Arkansas, Florida, Georgia, Louisiana, 
Mississippi, North Carolina, Oklahoma, South Carolina, and Texas. 
California did not identify pilot projects for implementation in FY 
2020.
    In June of 2019, NRCS solicited partner proposals to carry out 
NRCS-funded activities. This solicitation closed in August 2019. 
Partners submitted 34 proposals, and at least one proposal was received 
for activities in each of the pilot areas.
    Regional Conservation Partnership Program (RCPP)--The 2018 Farm 
Bill made a number of changes to RCPP that will provide greater 
opportunities for partners and enable NRCS to implement the program 
more efficiently. Of note, RCPP is now a stand-alone program with $300 
million in annual funding. Moving forward, landowners and agricultural 
producers will enter into RCPP contracts and RCPP easements. NRCS may 
award up to 15 Enhanced Alternative Funding Arrangement (AFA) projects, 
which are more grant-like and rely more on partner capacity to 
implement conservation activities. The announcement offering AFA 
opportunities will be released after the rule is published. And, all 
RCPP projects must now develop and report on their environmental 
outcomes, providing a greater emphasis on project outcomes.
    Throughout 2020, NRCS staff will be working with customers 
throughout the country on the newly-launched Conservation Assistance 
Ranking Tool (CART). This tool was designed to conduct conservation 
planning and deliver our programs more efficiently. CART will also 
track conditions on the land, including resource concerns. The 
information collected through CART will enable NRCS to better report on 
the outcomes from our conservation efforts and will inform future 
conservation planning efforts. Overall, the improvements made through 
CART will enhance our customer experience and is also expected to save 
200,000 hours of staff time each year.
    The 2018 Farm Bill also provided for some of the most extensive 
changes to FSA conservation programs in recent history. As we 
implemented the farm bill provisions, FSA made administrative decisions 
that prioritized the conservation goals of the programs and ensured 
that the programs would not adversely impact new farmers and ranchers 
who are critical to the future of American agriculture. Administrative 
decisions were facts-based, data-driven, and customer-focused.
    Conservation Reserve Program (CRP)--This year marks the 35th 
anniversary of the CRP, administered by FSA. This farm bill program 
provides a variety of conservation and economic benefits. By enrolling 
in CRP, producers are improving water quality, reducing soil erosion, 
and restoring habitat for wildlife. This in turn spurs hunting, 
fishing, recreation, tourism, and other economic development across 
rural America. Following an abbreviated signup in 2019, updating of 
rental rates, and publication of our regulation, FSA opened CRP signup 
under the broader suite of 2018 Farm Bill provisions for both 
continuous and general CRP on December 9, 2019.
    CRP Continuous Signup--The continuous signup is noncompetitive and 
ongoing, targeting certain high-priority conservation practices.
    CRP General Signup--The general signup is now an annual competitive 
opportunity for producers to enroll acres in CRP, which ends this year 
on February 28. This signup includes increased opportunities for 
enrollment of wildlife habitat through the State Acres for Wildlife 
Enhancement (SAFE) initiative.
    While some practices under SAFE will remain available through 
continuous signup, CRP continuous signup now focuses primarily on 
water-quality practices under the Clean Lakes, Estuaries, and Rivers 
(CLEAR) Initiative. The 2018 Farm Bill prioritizes water-quality 
practices such as contour grass strips, filter strips, riparian 
buffers, wetlands, and ``new'' prairie strips.
    CRP CLEAR30 Pilot--In addition to the CLEAR Initiative practices 
already being enrolled through the regular 10 to 15 year continuous 
signup contracts, FSA will also offer a new CLEAR30 pilot beginning 
later this year. CLEAR30 will provide an opportunity for producers to 
re-enroll in CRP CLEAR initiative practices for 30 years.
    CRP Grasslands--A separate CRP Grasslands signup will now be 
offered each year following general signup. This year CRP Grasslands 
signup begins March 16 and ends May 15. CRP Grasslands helps landowners 
and operators protect grassland, including rangeland and pastureland 
and certain other lands while maintaining the areas as grazing lands. 
Additional information on CRP Grasslands will be provided in the next 
few weeks.
    CRP Soil Health and Income Protection Pilot Program (SHIPP)--The 
signup for SHIPP will be announced soon. SHIPP will allow producers in 
the prairie pothole region the option of a 3 to 5 year CRP contract to 
establish cover on less productive cropland.
    CRP Transition Incentives Program (TIP)--TIP is also now available 
to all owners and operators of expiring CRP acres and enables the 
transition of that land to a beginning, veteran or socially-
disadvantaged farmer or rancher to return land to production for 
sustainable grazing or crop production. TIP participants may have a 
lease of at least 5 years with an option to purchase, and they have 2 
years before the end of the CRP contract to make conservation and land 
improvements.
    Emergency Conservation Program (ECP)--FSA has also implemented all 
2018 Farm Bill provisions related to ECP. This program provides 
emergency funding and technical assistance to farmers and ranchers to 
rehabilitate farmland damaged by natural disasters in order to restore 
the land's productive agricultural capacity and to implement emergency 
water conservation measures in periods of severe drought. Farm bill 
changes included advanced payments for fencing, increased cost-share 
for socially-disadvantaged participants, added wildfires as an eligible 
disaster event, and increased payment limits.
    Farm Loans for Conservation--FSA continues to support farmers and 
ranchers to promote and fund conservation practices through its direct 
and guaranteed loan programs. Family farmers unable to obtain 
commercial financing may use direct and guaranteed farm ownership and 
operating loan funds for costs associated with land and water 
development, or to promote soil and water conservation and protection. 
Larger and financially stronger fa[r]mers may use guaranteed 
conservation loan funds for conservation activities included in a 
conservation plan or Forestry Stewardship Management Plan. 
Additionally, existing borrowers may qualify for a reduction in 
indebtedness in exchange for a conservation contract (also referred to 
as Debt for Nature) that restricts the type and amount of development 
that may take place on marginal cropland and other environmentally 
sensitive lands for conservation, recreation, and wildlife purposes.
    Grassroots Source Water Protection Program (GSWPP)--FSA also 
oversees GSWPP, providing $6.5 million annually under the 2018 Farm 
Bill to the National Rural Water Association to implement the Source 
Water Protection Program.
Conclusion
    We are proud to update this Committee on the thoughtful and 
coordinated actions to implement the provisions of the farm bill that 
both the Natural Resources Conservation Service and Farm Service Agency 
have taken. We continue to work together to ensure our programs work 
for the benefit of our nation's farmers and ranchers as intended.
    And while we have worked very hard to implement these changes as 
quickly as possible, we have done so while continuing to provide 
consistent delivery for these impacted programs throughout this past 
year. We recognize the need to continue our efforts and to work closely 
with our partners inside and outside the agencies to build and conserve 
our nation's natural resources.
    [Madam] Chair this concludes our statement. We are happy to answer 
your questions and those of the other Subcommittee Members.

    The Chair. Thank you, Chief Lohr. We appreciate your 
comments.
    Administrator Fordyce, you may begin.

STATEMENT OF HON. RICHARD FORDYCE, ADMINISTRATOR, FARM SERVICE 
                  AGENCY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Fordyce. Thank you, Chairman Peterson, Ranking Member 
Conaway, Madam Chair Spanberger, Ranking Member LaMalfa, and 
other distinguished Members of the Subcommittee. I am honored 
to be with you this morning. Thank you again for the 
opportunity to appear before you and represent FSA.
    The 2018 Farm Bill provided for some of the most extensive 
changes to FSA conservation programs in recent history. We are 
dedicated in our outreach to ensure producers understand the 
many options they have to benefit from these programs.
    As we implemented the farm bill provisions, FSA made 
administrative decisions that prioritized the conservation 
goals of the programs, and would not adversely impact new 
farmers and ranchers, who are critical to the future of 
American agriculture. Our decisions were fact-based, data 
driven, and customer-focused.
    2020 marks the 35th anniversary of the Conservation Reserve 
Program. The tens of millions of acres farmers and ranchers 
have chosen to enroll under CRP since 1985 provide a variety of 
conservation and economic benefits. Currently at 22 million 
acres, CRP is one of the largest private lands conservation 
programs in the U.S. The 2018 Farm Bill authorized 27 million 
acres by 2023, which means continued successes like preventing 
more than 9 billion tons of soil from eroding, enough soil to 
fill 600 million dump trucks, protecting more than 175,000 
stream miles, enough to go around the world seven times, and 
increasing populations of birds and other wildlife. After 
updating rental rates and publishing our regulation in December 
2019, we were able to open sign-up for both general and 
continuous CRP. This includes the Conservation Reserve 
Enhancement Program.
    We reminded producers today that we are only 1 month from 
the end of the general sign-up, which is now an annual 
competitive opportunity for producers, where offers will 
continue to be ranked based on environmental factors. We set 
this deadline to ensure decisions on acceptance are made in 
early spring, prior to planting, so farmers and ranchers can 
use best management practices on that ground in preparation for 
CRP.
    A separate CRP grasslands sign-up will follow general sign-
up annually, which will run from March to May this year.
    The ongoing continuous sign-up continues to target high 
priority conservation practices, and now focuses primarily on 
water quality practices prioritized in the 2018 Farm Bill under 
the Clean Lakes, Estuaries, and Rivers Initiative, or CLEAR. 
Producers will also have the opportunity to re-enroll CLEAR 
practices in a 30 year CRP contract for the first time under 
the new CLEAR30 Pilot, which will be announced later this 
spring.
    We also anticipate announcing soon the Soil Health and 
Income Protection Pilot Program, or SHIPP, in the prairie 
pothole region of the country.
    For producers that have CRP contracts nearing expiration, 
we encourage them to re-enroll in one of these sign-up options, 
or take advantage of expanded options under the CRP Transition 
Incentives Program, or TIP. With $50 million available under 
the 2018 Farm Bill, TIP now allows all contract holders with 
expiring CRP acres the opportunity to transition land to a 
beginning, veteran, or socially-disadvantaged farmer or rancher 
to return land to production. FSA also has funding tools for 
farmers and ranchers who implement conservation practices 
through guaranteed conservation loans, and for those that 
qualify, our more traditional and direct and guaranteed loans 
programs may be a funding option.
    Our efforts to implement conservation programs could not be 
realized without talented and dedicated staff. The additional 
appropriations from Congress for staff and direct hire 
authority from the Office of Personnel Management are helping 
us help our staff, who in turn help America's farmers and 
ranchers.
    And as I bring my comments to a close, sitting next to my 
colleague and former farmer, Chief Lohr, I want to emphasize 
that FSA continues to strengthen our relationship with NRCS and 
the Risk Management Agency in the farm production and 
conservation mission area. We work very closely with NRCS on 
CRP and our other programs in our nearly 3,000 offices in 
communities nationwide, and through the outreach that we 
provide to our producers, which is unparalleled. Together, our 
conservation programs make up a tremendous tool kit that USDA 
provides to America's primary land stewards and drivers of our 
agriculture economy, the U.S. farmer and rancher. Information 
about all of our programs is available at farmers.gov.
    Thank you again for this opportunity to update on the 
implementation of the 2018 Farm Bill. Madam Chair, this 
concludes my statement, and I will be happy to answer your 
questions, and those of the other Subcommittee Members.
    The Chair. Thank you very much for your comments today. We 
appreciate them on this very, very important topic.
    Members will be recognized for questions in order of 
seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
arrival.
    I would like to first begin by recognizing Chairman 
Peterson of the full Agriculture Committee for 5 minutes.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. I thank the gentlelady for recognizing me.
    Chief Lohr, we had a meeting a couple weeks ago before 
this, but I never heard in that meeting anything about this 
ranking thing, what did you call it?
    Mr. Lohr. The CART, Conservation Assistance Ranking Tool.
    Mr. Peterson. Yes.
    Mr. Lohr. Yes, sir.
    Mr. Peterson. Where did that come from?
    Mr. Lohr. Mr. Chairman, this has been an idea that has been 
in the works for many years as a way how we can streamline our 
programs and our processes, because as you know, we offer a 
variety of farm bill programs, and many times, it is very 
cumbersome for a producer to know which program would make the 
most sense, and ranking different programs have different 
ranking techniques.
    CART is a tool that has been developed over the last 
several years, but the goal is to have one centerpiece of 
technology where one of our employees can work hand-in-hand 
with the producer, identify their farm, get the farm 
information inputted, look at all of the resource concerns that 
they have. That information is inputted. Look at what programs 
we have, what pieces of technical assistance we can provide. 
All of that gets inputted into the computer software, and then 
it will actually do an assessment on which practices would be 
the most beneficial to affect that operation, and it will 
automatically rank them for which program would be the best fit 
for that.
    Mr. Peterson. In other words, you don't need the people in 
the county offices anymore?
    Mr. Lohr. No, there is still going to be much work for our 
employees.
    Mr. Peterson. Well, this streamlining, this is more 
bureaucracy. I don't see that it is going to do any good, other 
than give people a chance to come in and lobby your department, 
come up with more damn crazy regulations that are going to 
screw things up, like what you are doing with CRP and EBI 
(Environmental Benefits Index).
    I just think that this is going in the completely wrong 
direction, to have some kind of top down deal. I mean, it is 
just--I don't know. That is the first I have heard of this. I 
don't think my staff has heard about it either. Yesterday. You 
say it has been going on for years?
    Mr. Lohr. No, actually we just rolled the program out last 
Friday.
    Mr. Peterson. Yes, but you said you were working on this 
for years?
    Mr. Lohr. A goal of the agency--certainly even a goal of 
Secretary Perdue--is how we can better streamline our programs 
to make them more efficient. We all have participated in 
government programs, and one of the complaints by producers is 
the red tape and the amount of paperwork and the redundancy.
    Mr. Peterson. Are people going to come in here and put 
things into this system that are going to drive what kind of 
things happen, or is this going to be neutral and that stuff?
    Mr. Lohr. No, sir. Yes, so we are still accomplishing the 
same end goal of helping producers match their resource 
concerns with the proper assistance that is needed and the 
proper farm bill program. This is just a way to make the 
process easier.
    Mr. Peterson. But, the EBI is going to try to figure out 
what is the most environmentally sensitive land was, and then 
people came in and lobbied and got all this stuff put in there. 
We ended up spending $600 an acre planting these crazy mixtures 
that they got, and so forth.
    I just have no confidence that that is not going to be the 
end result of this kind of a system.
    Mr. Lohr. Well, I can assure you----
    Mr. Peterson. You got a bunch of work to do to convince me 
that this is a good idea.
    Mr. Lohr. Yes, sir. Well, it is debuting in our offices 
this week, and I would be happy to come back and give you an 
update on the progress and success of the program.
    Mr. Peterson. We better do that.
    I thank the gentlelady.
    The Chair. I now recognize Ranking Member Conaway of the 
full Agriculture Committee for 5 minutes.
    Mr. Conaway. Thank you, Madam Chair.
    Mr. Fordyce, on the rental rates for CRP, can you talk to 
us about the criteria for setting up those rates, because we 
are getting some differences between neighboring counties, and 
obviously, farmers talk to each other and it creates a ruckus. 
Can you give us some insight in how that is coming about?
    Mr. Fordyce. Absolutely. We start with the NASS cash rent 
survey that NASS does every year to gauge what the rental rates 
are in that particular county. And then there is a proration. 
General CRP is prorated at 85 percent of that cash rental rate 
from the NASS survey. Continuous is prorated at 90 percent of 
that. I would say that once the rental rates are posted, 
counties--driven by the county--the locally elected county 
committee can submit an opportunity to adjust those rates, and 
we do have a formula in place that allows them to readdress 
those if they see that they are disparate, say, compared to a 
neighboring county.
    Mr. Conaway. But, if the NASS data is wrong in your 
analysis--I mean, if you have counties side-by-side, there 
shouldn't be market differences between the two.
    If I could get my team and I to work with you on the 
specific counties in District 11 that are giving me the most 
heat about this issue, can we work with you on that and find 
out why that is happening?
    Mr. Fordyce. Yes, absolutely.
    Mr. Conaway. Because, the goal in the 2018 Farm Bill was to 
lower rental rates to be more reflective of market, but some of 
these were set at levels that got the farmers back home 
scratching their heads over it. We can work with you on that?
    Mr. Fordyce. Yes, absolutely, sir.
    Mr. Conaway. Okay.
    Mr. Fordyce. We would be more than happy to work with you 
on the processes that we are currently utilizing, and again, 
the counties do have an opportunity to--I guess the word is 
appeal----
    Mr. Conaway. Appeal, okay.
    Mr. Fordyce.--those rates, and we do have a process by 
which we follow.
    Mr. Conaway. All right, and the other thing, Chief, I am 
keenly interested in the implementation of the Feral Swine 
Eradication Program, your pilot projects. Can you give us some 
specifics, I think you said $37 million was made available. Can 
you talk about the specific projects that we can look forward 
to seeing the results of?
    Mr. Lohr. Yes, sir. In my travels throughout the Southeast 
primarily, hardly a trip goes by without someone mentioning the 
impact of feral swine. The farm bill gave $75 million that was 
split between us and APHIS, so we have $37\1/2\ million. Our 
goal was to take \1/2\ of that money in year 1 and then \1/2\ 
of that money in year 2, and work with partners to be able to 
put some pilot programs together, delivering the money in the 
first 2 years, we would have several years to assess the 
impact, and hopefully see what the successes can be.
    We targeted ten states primarily from Oklahoma, Texas, all 
the way around the Southeast up to North Carolina. These were 
the states that had the highest percentage of feral swine 
infestation. APHIS state director and our NRCS state 
coordinator worked together with the state technical 
committees. They identified pilot programs or pilot projects in 
each of those ten states, and then they applied and we 
selected--I think there were 18 areas that were selected, ten 
pilots were selected, and then they have begun to start putting 
their proposals together.
    From NRCS' point of view, we are focusing on the trapping 
of feral swine, and so most of these proposals are going to 
focus on surveillance equipment and cameras, and the actual 
monitoring, and then be able to see how collaboratively they 
can come together to try to get a handle on feral swine.
    Some of the projects are going to be focusing on doing 
videos, maybe training videos to help other people once they 
gather some of these successes so they can share with other 
farmers to see what would be the most beneficial, going 
forward.
    We are well underway. Like I said, we have \1/2\ of the 
money that has been obligated. We have the partners in place. 
They put their proposals together, and we are anxious to see 
them get started and see what successes we can find.
    Mr. Conaway. Well thanks for getting the quick start on 
that project, because you had a lot to get done, both of you 
guys did, and I appreciate that.
    Madam Chairman, I yield back.
    The Chair. I now recognize myself for 5 minutes.
    Chief Lohr and Administrator Fordyce, again, thank you for 
being here. We have a number of Members who are coming and 
going from multiple committee hearings, so thank you for your 
patience, and thank you for your presence here today.
    I wanted to first ask about the implementation of some of 
the significant changes to the farm bill. Staff at USDA are 
working to implement these changes to the conservation programs 
made in the 2018 Farm Bill, and my question is, how are you all 
engaging with producers at the various state levels regarding 
sign-up timelines? Are you meeting with groups on a monthly 
basis, and if not, what are the meeting schedules that you are 
carrying out, and what can you commit to, going forward?
    Mr. Fordyce. Thank you for the question, and certainly, 
outreach and the ability to communicate all of the 
opportunities that we have to offer under our conservation 
programs is critically important.
    In every state, we have dedicated outreach and public 
affairs coordinators that work individually with county 
offices, and we find that certainly we can have larger 
statewide meetings with stakeholders, but a lot of times that 
outreach and that communication works really best at the local 
level. And so, I can get for you, I don't have the number, but 
I can get for you the number of outreach kind of meetings, town 
hall meetings in which our local staff, folks on the ground 
that understand the needs of the local producer and landowner, 
have undertaken. But it is quite numerous, because as you can 
imagine, with just CRP, for example, with a new general sign-up 
and some of the things that are offered through the continuous 
sign-up. Lots of questions and certainly lots of interest.
    The Chair. I would be interested in receiving that as 
follow-up, so thank you for offering it. My focus really here 
is ensuring that localities and communities across Virginia and 
across the country have access to the information so that they 
can be as responsive as possible, and make sure that they know 
about these programs and are meeting the timelines.
    And Mr. Fordyce, you had mentioned that your staff is the 
staff that helps America's farmers and ranchers, and I 
appreciate that understanding of how you view your workforce. 
Congress has invested significant resources into these 
conservation programs. We have also raised the NRCS staff 
ceilings and provided FSA funds to hire additional field staff 
to efficiently administer their programs, with an eye towards 
meeting producer needs and conservation goals.
    Can both of you talk through your plans and timelines for 
hiring staff, NRCS field staff, and when can producers in my 
district expect to have additional NRCS and FSA staff on board?
    Mr. Lohr. Very good. Thank you, and please know that for 
both of us, staffing is one of our top priorities to make sure 
we have enough employees in the field being able to service the 
needs of our producers.
    Very quickly, we are about 8,800 employees right now at 
NRCS, and we have been given a ceiling cap of about 10,445. We 
have a tremendous opportunity to bring a lot of new employees 
into the field, and for NRCS, we have a targeted three-prong 
approach, one focusing on the Pathways Program, the Student 
Intern Program. We derive a lot of our employees that go 
through this program. Right now, we have made 569 offers to 
college students. Right now, 450 have been selected that will 
intern with us next summer, and the thing about Pathways, when 
you do two summers, 640 hours, then you have an automatic 
conversion into being a full-time employee. We put a lot of 
emphasis into that program. It gives them the opportunity to 
see who we are.
    The second one is our direct hire authority, which we are 
very appreciative for OPM for giving us 273 positions in about 
25 states, focusing on disaster work and farm bill 
implementation. We are working very aggressively to meet that 
obligation we have for those positions, but we certainly 
appreciate the flexibility being able to work at a local level 
to get those right folks in place.
    And finally for us, we realize that if we are going to make 
progress in our staffing numbers, we need to focus on those 
entry level positions that are the most farmer-facing. Our soil 
conservationists and soils contacts, soil scientists, the ones 
in our district offices who are putting an emphasis on allowing 
our states to put that as a priority to make sure that we can 
have folks that are coming into the agency that are going to be 
the ones that are working most directly with our farmers.
    We have an aggressive timeline. Our hope is that by 
probably May we should have an additional 500 employees that we 
will have on staff, so the farmers in your district hopefully 
will see some new faces pretty soon, and then once we get them 
hired, we have processes to train them and mentor them to 
ensure they will be effective.
    I apologize if I took all the Administrator's time.
    The Chair. Thank you. We will be doing a second round of 
questions, so out of respect for my colleagues' time, we will 
proceed through and I will get back to you hopefully, Mr. 
Fordyce, when we come back to it.
    I now recognize Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Madam Chair. I appreciate it.
    Administrator, I will start with you. Of course, you know 
how incredibly wet the last year has been in South Dakota, 
really, the entire northern Great Plains, it seemed like. And 
as producers try to grapple with how best to deal with that 
land resource on a going forward basis, one would think CRP 
would play a big role and would be an important tool in the 
toolbox. The producers that are talking to me are mindful, of 
course, that in the 2006 CRP, I mean, only two contracts were 
signed in South Dakota. As we look toward sign ups in the 
future, how optimistic should they be that CRP is a worthwhile 
tool that will be available to them?
    Mr. Fordyce. Well, that is a great question, and I would 
say that farm country, under a lot of those kinds of decisions 
that are being made, right?
    As a farmer, I am always trying to understand what those 
decisions are, and you mentioned the 2016 sign-up where there 
were only two contracts taken. If I were to answer that as to 
why that was, we were very close to bumping up against the cap, 
and so the level at which we were accepting contracts, the bar 
was set fairly high. The current sign-up certainly is a 
competitive sign-up, and we will have to see what kind of 
offers we get and at what level do we set that bar of accepting 
contracts.
    I do believe, though, that you are absolutely correct, that 
CRP could be an option for some of these areas that have seen 
some real weather impacts.
    Mr. Johnson. Let's talk with some additional specificity 
about what might change. Of course, the EBI tool you all used 
to do the evaluation is the same. You know, the cap was raised 
in the farm bill, but are the prospects dramatically different 
in the future than they were in the recent past, do you think?
    Mr. Fordyce. Well, I would just answer that by saying that 
certainly there is an increase in the cap, and we do have a 
good number of acres that are expiring by the 1st of October of 
this year, of 2020. There is going to be more room than there 
was in that 2016 sign-up.
    Mr. Johnson. If we could talk a little bit, gentlemen, 
about pheasants. Of course, we all know that many producers 
across the country are looking more and more to diversified ag. 
I guess they are looking back again to diversified ag as an 
important risk mitigation tool, buy down some volatility. And 
in South Dakota, pheasants, that is an important part of the 
diversification story.
    I am just curious if we can get an update on progress as we 
move towards some of the working lands conservation, some of 
the grazing conservation? Where are we at with that?
    Mr. Lohr. Certainly, both of our agencies support habitat 
and certainly pheasants are a major part of that, especially in 
your neck of the woods. We continue to do work. We have farm 
bill biologists through Pheasants Forever, a contract position 
that works with us and our offices that continues to help 
provide guidance to producers through several of our programs. 
The Working Lands for Wildlife Program, as you know, also 
allows farmers to be able to be paid to put habitat practices 
on their operation that can enhance habitat like for pheasants 
and quail. Definitely, I know with our agency, that remains a 
top priority as we go forward in the new farm bill, and being 
able to help producers be able to be compensated for addressing 
those habitat concerns for birds like pheasants.
    Mr. Johnson. Well, I know any time you get a new farm bill, 
of course there are 100 things that have to be done 
immediately. But do we have some sense of when producers might 
be awarded contracts for the CRP Grasslands Program?
    Mr. Fordyce. The CRP Grasslands Program sign-up will run 
almost right after the general sign-up comes to an end, and 
that is February 28. CRP grasslands sign-up will start March 16 
and run through May 15, and we hope to have folks notified by 
early summer of their acceptance into the CRP Grasslands 
Program.
    Mr. Johnson. Well, I would just add, Madam Chair, for our 
two witnesses as well as for yourself, if anybody ever wants to 
come shoot some ring necks, let me know. I will make sure we 
have a good time. Thank you.
    Mr. Fordyce. Thank you.
    The Chair. I now recognize Mrs. Axne of Iowa, for 5 
minutes.
    Mrs. Axne. Thank you, Madam Chair.
    Dusty, I will tell you what. We will have to fight for 
that, because you know we got a lot of pheasants in Iowa, too.
    Anyhow, Madam Chair, Ranking Member, thank you so much for 
having this hearing on the implementation of the conservation 
programs. Thank you, Chief Lohr, and Administrator Fordyce, for 
being here.
    My home state, as you are probably fully aware, is the 
largest recipient of conservation program enrollment in the 
country, so I appreciate the work that you do to help us with 
that. Thanks so much.
    I am going to talk a little bit about flooding, because I 
am sure you all know that we are still suffering in Iowa. But I 
would like to also thank the USDA for the prompt reply to my 
request from Secretary Perdue for the status update on the 
flood recovery funding that has been allocated to Iowa. Thank 
you so much for that.
    I am sure you know, as I mentioned, that southwest Iowa had 
our devastating flood last spring. We are expecting, of course, 
to see more flooding this spring because of the runoff, and 
certainly a lot of precipitation on the ground, and we have 
still have a lot of levees that need repairs.
    But, the recovery has been long and arduous. Many 
expressions from Iowans are that they are really frustrated 
with the inability to get the funding that they need as quickly 
as they would like to from the different agencies.
    To help with that and to provide some transparency, I 
started an Iowa Flood Funding Tracker to make sure that the 
money we appropriated for the Midwest floods is actually 
getting out to the flooded areas. And I have asked multiple 
Federal agencies involved to provide specific answers related 
to that. Thank you for giving us the information we needed. 
Please help us to continue to keep that updated as you put more 
funding towards the recovery process in Iowa.
    Of course, my first question is related to the disaster 
that we are still seeing. Many Iowans have taken advantage of 
the Emergency Conservation Program which provides financial and 
technical assistance to farmers whose land has been damaged to 
help restore their land.
    But, Administrator Fordyce, what kind of outreach, and I am 
asking for outreach in particular, not our folks having to go 
and ask for the support, but outreach does NRCS do on these 
programs when a natural disaster hits? And then the second 
question would be how are local communities made aware of the 
assistance that is available through ECP?
    Mr. Fordyce. I am very aware of your situation. My farm is 
just 18 miles from the Iowa line, not in the Missouri River 
flooded areas, but certainly a lot of friends have been 
impacted by that as well.
    Again, as we talk about outreach and we talk about how do 
we communicate those things that are available, we have--and I 
will probably mention this quite a bit during the hearing--the 
opportunity to really commend our staff that are on the ground. 
Whether it is the executive director within the county, the 
county executive director or the program technicians that are 
there, have great relationships with the local producers and 
landowners. Constantly refer to those farmers and ranchers and 
landowners in their county as their farmers. And so, there is a 
great deal of outreach and communication at the local level, 
and certainly from a state level as well, working with 
stakeholders, whether it is commodity organizations, farm 
groups, and others, to be able to get the word out about those 
kind of programs that are available.
    Mrs. Axne. Okay. Basically just through local folks on the 
ground. Is there any other way that people can get what they 
need?
    Mr. Fordyce. And partnering with stakeholders. That is 
another key way that we can communicate those messages out.
    Mrs. Axne. Okay. Is there anything else you think that you 
could be doing to help with this process?
    Mr. Fordyce. Well, I know we had a couple of calls with you 
to talk through the ECP and the other programs. You know, as 
part of the disaster funding, there was a component of on-farm 
stored grain that is not directly related to ECP, but it was a 
program that we administered, and I believe Iowa was the 
largest recipient of that program. Over $3 million went to 
producers that had grain that was damaged and literally washed 
away that was, certainly, very meaningful dollars to those 
producers that lost that grain.
    Mrs. Axne. Well, I appreciate that. I was able to get that 
statutory language changed to cover that uninsured grain in 
bin, so we really appreciate your help with that.
    Mr. Fordyce. Thank you.
    Mrs. Axne. We couldn't have made it happen.
    I do have some additional questions, but I am running out 
of time, so I will wait for the second round.
    The Chair. I now recognize Congresswoman Schrier from 
Washington, for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair, and thank you for 
allowing me to participate in today's Subcommittee hearing. I 
am not normally part of this Subcommittee.
    I wanted to speak about an issue of critical importance in 
Washington State, and this is the status of the SAFE Program, 
the State Acres for Wildlife Enhancement.
    Sage grouse are currently state listed as threatened, and 
sharp tail grouse are also state listed, but as endangered. And 
their population estimates in 2019 were only 676, and 834 
individuals respectively. Now, most of the habitat that is 
remaining to support prairie grouse in Washington State is on 
private land, so these are our farmers. CRP and SAFE in 
particular is one of the only programs that is available to 
conserve this habitat at a meaningful scale, and has been 
successful and probably is keeping these species off the 
endangered species list.
    My question is to you, Administrator Fordyce. Can you speak 
to the decision to move SAFE acres within CRP general sign-up, 
rather than on continuous sign-up as has historically been 
done? And my concern is that by moving it to general sign-up 
means there is a 10 year maximum contract length instead of 15, 
lower rental rates, and less allowance for incentive payments. 
And this makes it less likely that producers, farmers will 
apply for the SAFE Program, and it puts these species at risk.
    Mr. Fordyce. That is a good question. Moving SAFE to 
continuous or to the general sign-up, the thought around that 
was that a lot of the State Acres for Wildlife Enhancement 
covers are more grass type covers and opportunities for folks 
that want to participate in SAFE, our general practices have 
more of an opportunity for larger blocks of land as opposed to 
more resource concern focused areas.
    Moving SAFE to general, the general thought was that this 
offered literally more opportunities for folks that wanted to 
engage and participate in SAFE, and also allows for even SAFE 
practices. SAFE practices can also go in under continuous. 
SAFE-like practices could go under continuous that would 
enhance wildlife habitat as well.
    Ms. Schrier. Can you tell me more about those SAFE-like 
practices that could be continuous? Because in our state, it 
turns out that we will exceed the maximum acreage, and so, it 
is going to put these species at risk. What are the other ways 
around this?
    Mr. Fordyce. Are you referring to the 25 percent?
    Ms. Schrier. Yes.
    Mr. Fordyce. I have been communicating a great deal in the 
last probably 2 weeks, 2\1/2\ weeks with the state executive 
director there about that and what are opportunities for those 
areas of the state that are going to bump up or go over that 25 
percent crop land limit? And so, we have communicated what the 
process is for them to request a waiver, and that is in 
progress. As far as I know, we have not received anything at 
headquarters from them yet, but certainly we have talked about 
the process for a waiver for them to apply for.
    Ms. Schrier. That would be phenomenal. They would very much 
appreciate that, and I would like to stay in touch with you to 
make sure that I can facilitate that.
    Mr. Fordyce. And I absolutely would offer the opportunity 
for us to stay in communication on this issue and work with our 
staff to see kind of what the progress is of that.
    Ms. Schrier. Okay, thank you.
    Also, Madam Chair, I ask unanimous consent to insert a copy 
of an article from the January 2020 issue of Wheat Life, which 
highlights this change in the implications and the impact on 
conservation for farmers in Washington State; also a letter 
sent by our State Fish and Wildlife Director and the Washington 
State Conservation Commission Director; and I would like to 
submit a letter that was sent to me and Congressman Newhouse 
from the Foster Crate Conservation District.
    The Chair. So granted. Thank you.
    [The documents referred to are located on pp. 31 and 33.]
    Ms. Schrier. Great, thank you.
    Thank you, Administrator Fordyce. I don't believe it was 
Congress's intent to halt SAFE exemptions when it passed the 
2018 bill, and I am happy to hear that there is an opportunity 
for a waiver that we can pursue. Thank you.
    Mr. Fordyce. Thank you.
    The Chair. I now recognize Congresswoman Fudge, for 5 
minutes.
    Ms. Fudge. Thank you, Madam Chair. Thank you so much for 
being here.
    Chief Lohr, I am sure you are aware that the urban 
agriculture movement has grown rapidly in northeast Ohio, of 
course, where I am from. In fact, the City of Cleveland is now 
recognized as having the second most active successful U.S. 
urban agriculture movement in the United States. In my area of 
Cleveland, we have more than 120 seasonal high tunnel homes, 
which I am sure you are aware.
    Mr. Lohr. Yes, ma'am.
    Ms. Fudge. And I want to thank NRCS for programs and 
services and partnerships like the Federation of Southern 
Cooperatives, because it does assist us in extending the 
growing season. And you know, right now it is very cold in 
Ohio.
    But, I will say that I am disappointed that the most recent 
announcement for Conservation Innovation Grants funding did not 
include socially-disadvantaged farmers and ranchers, and black 
farmers in the definition of historically under-served farmers 
and ranchers. Could you tell me why?
    Mr. Lohr. I will say first of all, thank you for the 
efforts you have done and led in your district over the years. 
You have an amazing number of high tunnels that have been 
constructed, and certainly serves as a blueprint for other 
urban areas.
    In the past, we did not have a structured process for 
administering grants to different types of groups, outreach 
grants. At the urging of the Secretary and the Under Secretary, 
we wanted to try to make sure we could streamline that process, 
put a more structured process in place to make it more fair. As 
part of that, we set $35 million aside that we are going to be 
administering the opportunity soon, Conservation Collaboration 
Grants, and $10 million of that is aimed towards historically 
underserved----
    Ms. Fudge. But how could you be historically under-served 
if you are not socially-disadvantaged? Please help me.
    Mr. Lohr. Well, ma'am, in my opinion, that will certainly 
be included in that definition of historically under-served.
    Ms. Fudge. But it isn't included. The fact is it is not 
included.
    Mr. Lohr. Okay.
    Ms. Fudge. Could you at least take a look at it?
    Mr. Lohr. Yes, ma'am.
    Ms. Fudge. I mean, because when you don't include black 
farmers, I don't know who else you include.
    Mr. Lohr. Sure. Well, I can tell you that when I think of 
historically under-served, I certainly would include African 
Americans and other minority populations.
    Ms. Fudge. Let me just ask you, how many African Americans 
do you have in your leadership, either of you? Because I don't 
see any sitting in this room.
    Mr. Lohr. I don't know offhand, but there are several.
    Ms. Fudge. If they are in your leadership, you can just 
probably count them on your hand right now and tell me.
    Mr. Lohr. It depends on definition of leadership, but out 
of a team of 30, we probably have at least ten or twelve, I 
would say.
    Ms. Fudge. Okay. Could you send it to me?
    Mr. Lohr. Sure.
    Ms. Fudge. Thank you.
    Mr. Lohr. Thank you.
    Ms. Fudge. It seems to me that the rules or the direction 
that you are going is really pushing minority farmers and 
community-based organizations out of conservation programs. I 
am certainly hopeful that you will take a look at where that 
is, and my office would be happy to have conversations with you 
about it. But it is just unfortunate to me that everything that 
I am seeing out of this particular USDA either hurts poor 
people or people of color or hungry people, even though your 
motto says we feed everybody, I don't know who those 
everybody's are, because I don't see what you do. But I am 
hopeful that at some point you will recognize the fact that 
there are many under-served farmers in this country, including 
in cities like mine. Everybody thinks farming is solely rural. 
It is not. My children need healthy foods just like everybody 
else's children do in our schools.
    And so, I just would like for you to get back to me with 
the questions that I have asked you and to at least consider 
the fact that what you have done has left out an entire group 
of people that, through the farm bill and everything other 
thing we have done, we have tried to lift. Now you are pushing 
them back down.
    I yield back.
    Mr. Lohr. Yes, ma'am. If I could respond, I would be happy 
to get you answers to your questions, ma'am, but I will say I 
can promise you that as Chief of this agency, it is not our 
intent to limit the opportunity to serve our under-served 
populations, and through our programs of EQIP, we have an 
advanced payment option where they can receive 50 percent----
    Ms. Fudge. With all due respect, it probably isn't your 
intent, but that is, in fact, the effect. Thank you.
    Mr. Lohr. Thank you.
    The Chair. With the first round of questions completed and 
without objection, we will begin a second round of questions. 
Members will be recognized for 5 minutes in order of seniority. 
I now recognize myself for 5 minutes.
    Chief Lohr, I understand that CSP had significant unused 
funding last year, and some of the changes being made to CRP 
are likely to going to score as saving money, money that should 
be reinvested in CRP. Both of these programs consistently have 
more producer interest than we have funding to support.
    Do you expect to fully spend the CSP carryover money this 
fiscal year? If so, how, and if not, why?
    Mr. Lohr. Yes, ma'am. I will say CSP, one of the major 
changes from the 2014 Farm Bill to the 2018 Farm Bill is that 
before it was an acre-based program, and it converted to a 
dollar-based program. Because of that transition, there were 
some carryover funds that we ended up ultimately having about 
$100 million that we had in carryover money. The descriptions 
in the farm bill actually specify how that money is to be 
distributed. It actually goes back to the 2014 and 2015 
contracts that were based on RCPP. This gets really wonky in 
the weeds, but the old RCPP was a donor-based program, so there 
were dollars that were contributed through the various 
programs. Starting in 2018, going forward, RCPP is a standalone 
program. But in the previous farm bill, CSP dollars were tied 
to some of these RCPP projects.
    The carryover money that we had from the 2014 Farm Bill 
will be directed towards funding the CSP through the RCPP 
programs. Starting in 2018, going forward, since we have a 
dollar-based program, we will not have an issue with carryover 
funds anymore. That is part of making the transition. The 
change in the program will eliminate the carryover situation 
that we had this past year.
    The Chair. Specifically, does that mean that we intend to 
see that money being used?
    Mr. Lohr. Absolutely. Yes, ma'am.
    The Chair. Okay, and just noting my concern is based on the 
fact that in 2016, CRP general sign-up, in that sign-up, only 
22 percent of the acres offered were accepted, and as you well 
know, if we don't spend this money, we will have less money 
towards the baseline in the future. And that is our concern 
that we are depleting this program by not actually allocating 
those dollars.
    Mr. Lohr. I think we are blending programs. I was speaking 
to CSP, and CRP would be under my counterpart, Mr. Fordyce, 
here.
    The Chair. Oh, I am sorry.
    Mr. Fordyce. And I would answer the 22 percent of offers 
that were accepted in the 2014 Farm Bill, we have had a number 
of conversations about that with staff, and probably solely due 
to the fact of how close we were to hitting the acreage 
ceiling, the cap would be the main reason it was a 22 percent 
acceptance.
    The Chair. And do you anticipate that those dollars will be 
spent as we were discussing on the CSP side with CRP as well?
    Mr. Fordyce. Once the general sign-up deadline is here, we 
will have all of those offers. They are ranked according to the 
EBI, and then we will make a determination as to what score we 
take as far as what is above the line or below the line, and as 
I had indicated earlier, we do have a lot more room under the 
cap, and so we will have to wait until the sign-up is over and 
see what offers we get before I can answer that more closely, I 
guess.
    The Chair. Great, thank you. Well, I just can't stress how 
important it is that producers have access to these vital 
dollars.
    Chief Lohr, our work to improve soil health in Virginia 
supports the health of the Chesapeake Bay, and NRCS has funded 
a number of projects related to soil health recently. What else 
are you doing in Virginia to support soil health and water 
quality, and how do you anticipate leveraging the next round of 
CSP and EQIP to further that work?
    Mr. Lohr. Absolutely, and I know we are limited on time, 
but I will say, first of all, soil health is a top priority. As 
Chief this year, when I unveiled the top priority, soil health 
is certainly top of mine, and really, it helps to make sure 
that we are making sure all of our employees understand the 
importance of our decisions and the positive impacts they have. 
Training is a key component of that. We have 27 trainings 
planned for 2020, both in person and through AG Learn, to make 
sure that all of our employees understand that soil health is 
key to every one of the decisions that they make.
    One of the cool things of the farm bill was the CIG 
(Conservation Innovation Grants) On-Farm Trial. As you 
mentioned, $10 million of that is dedicated towards the 
research that is done on farms. I am very excited to see the 
success of what these projects will propose, and how we can 
take that data, gear it towards specific localities, and make 
sure that we can incorporate those practices, help us update 
our conservation practices, and make sure that we are being as 
current as we can.
    And very briefly--well, we are out of time, but there is 
more I can say, as you know, but we are limited on time.
    The Chair. Thank you so very much. Soil health is a 
tremendously important issue for so many of us here on this 
Committee.
    I now recognize my colleague from South Dakota, for 5 
minutes.
    Mr. Johnson. Thank you, Madam Chair.
    Last week, the Trump Administration released the final 
WOTUS rule, which will do a great deal to provide more 
regulatory certainty for landowners. It won't be any surprise 
to you, gentlemen, that this Committee and its Members get a 
lot of contacts from producers who are concerned about wetlands 
compliance violations. And of course, as you know, those 
violations can keep people from accessing programs in the 
future, and sometimes even requires a payback of past 
assistance provided.
    To what extent does USDA provide good guidance to producers 
who are trying to navigate the ambiguity surrounding Waters of 
the U.S.?
    Mr. Lohr. Well, I will say certainly as I have been chief 
the last year, being able to look at these wetlands compliance 
issues has been, again, a top priority because in the past, we 
have maybe had a culture that we were more enforcers instead of 
informers. And so, my goal has been how can we work with 
producers, treat them fairly, and address these needs?
    But, it all comes down to making sure that our staff are 
properly trained, and we are communicating that message to work 
hand-in-hand with our customers. We have implemented several 
changes, going forward, working with our state 
conservationists, making sure that we have trainings. We have a 
dedicated staff in many states where they do a lot of 
determinations where that is all they do, focusing on wetland 
determinations. We are in the process of creating a national 
review cadre that before we would actually administer a ruling 
of a converted wetland, that this review team will look at over 
all of the documentation and paperwork to make sure we have 
everything correct before issuing that conversion, because we 
want to make sure we got it right the first time.
    And so, really it comes down to being able to have open 
communication, making sure that our staff is trained, and 
making sure that we are doing everything we can to treat the 
farmer fairly, making changes to the NAD (National Appeals 
Division) process. There have been cases in the past 10 years 
where farmers--where they would win an appeal and then there 
would be another appeal and another appeal that we would keep 
coming back several times. Basically after a second adverse 
determination, if the producer prevails, then we are going to 
back away.
    I certainly understand that wetland compliance is a very 
sensitive issue. Our job is to make sure that we are making 
these determinations in a very fair way. Our staff, they are 
making proper determinations, and that we are being able to 
convey that fairly to the producer. Rest assured we will 
continue making progress in that area.
    Mr. Johnson. And I apologize to go way back in history, but 
you know, if memory serves, the 1996 Farm Bill provided for 
USDA to grant a certain number of--I think they were called 
limited effect exemptions----
    Mr. Lohr. Minimal effect, yes, sir.
    Mr. Johnson. Yes, minimal effect. And so, to my knowledge, 
I don't think that rule was ever promulgated. Is that right?
    Mr. Lohr. That is correct, sir. When we look at minimal 
effects, we have actually made some progress to make those 
determinations, but you are right. That rule was never 
promulgated.
    I will say that we are definitely looking at making that 
happen this year. When I came on board as Chief back a year 
ago, we were in the process of updating our interim rule for 
wetlands compliance and highly erodible land determinations. 
But the process had already passed as far as being able to make 
changes to that. That interim rule was released last--gosh, it 
has been many months ago now, and then we are in the process of 
posting a final rule. But to try to make a change to that 
interim rule would require public hearings, and we just can't 
do it. But we are committed as an agency to looking at being 
able to pick up the pieces again and try to go forward to 
rewrite the rules on this to make sure that we can have a 
chance to actually put that into regulation.
    Mr. Johnson. Well, I would just, by way of closing, Madam 
Chair, I thank this department, these agencies, the 
Administration at large. I mean, clearly we all care about the 
environment, we care about conservation. We want to make sure 
that there is substantial and material compliance with the 
goals and the mission and the objectives of these great 
programs.
    I want to thank you all for really trying to focus on 
compliance through education and through information, and not 
focusing quite so much on trying to catch people. I mean, 
ultimately we are going to get a better environment and we are 
going to get better conservation practices long-term with the 
approach you are taking, both through rule and practice.
    Thank you.
    Mr. Lohr. Thank you very much. I appreciate that.
    The Chair. I now recognize my colleague from Iowa for an 
additional 5 minutes.
    Mrs. Axne. Thank you, Madam Chair.
    I just want to touch base again about now incentivizing 
conservation practices. I am pleased to hear that there are 
some carryover funds, and I am hoping we can get all of those 
out the door.
    I have heard from too many farmers in my district who 
absolutely want to participate in certain practices like cover 
crops, but they feel it is too expensive for them to get into. 
They don't have the support they need to afford it, especially 
when our overall farm economy is really suffering, and I am 
sure you are fully aware that Iowa has the greatest farm debt 
right now. We want folks to get into these practices, but they 
have a lot of debt. They don't know how they are going to be 
able to afford it.
    What sense do you have of the impact of these increased 
incentive payments for CSP? Do you think that they will really 
have an impact on application enrollment?
    Mr. Lohr. Incentive payments for EQIP? I am sorry.
    Mrs. Axne. Yes, for CSP. Yes, for EQIP, absolutely.
    Mr. Lohr. Okay.
    Mrs. Axne. I mean, I want to know what we can do to get 
more folks into these programs that they think they can't 
afford them.
    Mr. Lohr. Absolutely. I think you are exactly right. There 
are lots of things we can do, but certainly the enhanced 
payments will help. Certainly, for a cover crop, being able to 
pay 150 percent where we were paying 100 percent, to pay these 
enhanced payment rates will certainly help.
    But, the best thing that we can do really is to continue to 
tell the story and have farmers share their successes. Farmers 
listen to farmers, and I have seen so many times across the 
Midwest where farmers will come and speak at certain events and 
share the successes they have had and how it has such a 
positive impact, not only on the environment, but on the bottom 
line. Definitely, we continue that outreach, continue having 
farmers tell their story, and at the same time, everything that 
we can do to help provide cost-share money to producers to make 
sure they can take advantage of that.
    Within our interim farm bill rules that were released with 
EQIP, states can select a targeted resource area, those areas 
that affect the biggest environmental threat that they 
determine, and within that, they can take certain practices and 
put an incentive payment on that as well. If a certain area 
within the Chesapeake Bay watershed has been deemed that it is 
a priority area, they can pay more for some of these practices. 
We also have what are called EQIP incentive contracts, which 
are brand new, which are like CSP where farmers can actually be 
paid to actually experiment, if you will, and actually target 
some specific resource concerns that they have on a particular 
area without it being on the entire farm, like traditional CSP 
works. They are longer contracts than typical EQIP, up to 10 
years, and they will be paid both on the improvement practice 
as well as the existing conservation efforts that they do.
    Part of our goal in creating these rules is to streamline 
the process, but also give more flexibility to states and give 
more flexibility to producers to be able to take advantage of 
the programs we have to meet those resource concerns.
    Mrs. Axne. I appreciate that.
    Is there anything else that you think that Congress can be 
doing to incentivize the use of these programs? What are we 
missing out on?
    Mr. Lohr. Well, it all starts with money, you know. For 
example, with EQIP, we only are able to approve about 25 
percent of all our applicants, so it is $2 billion a year, but 
there is a greater demand, and so we do the best to deliver the 
program dollars that are allocated to us through Congress. But 
certainly, the more opportunities we have with funding, we 
would be able to help more farmers put that conservation on the 
ground. I know we are not before the Appropriations Committee, 
but certainly dollars certainly drive action in many cases.
    Mrs. Axne. Okay. Am I hearing you correctly? We have excess 
revenue in some areas because we have a carryover, but we have 
other areas we are not able to fulfill the requests by as many 
people who would like it? Is there an option for us to be able 
to move some of these funds?
    Mr. Lohr. Well, for example, the carryover funds that we 
had in CSP, it is actually dictated in the law where that money 
needs to go. As we shift it to the new dollar-based program, we 
are not going to have those carryover funds.
    Now, rest assured those funds are still being delivered and 
administered to help producers. It is just limited to the uses 
that it can go to and the programs that it can fund. But the 
dollars are still being put on the ground.
    Mrs. Axne. Yes. Okay, all right. Well, if there are any 
other ways that you can think of, I will continue to push 
Congress to put more funding overall in the next farm bill, but 
let us know. We would love to hear it.
    Mr. Lohr. Thank you very much.
    Mrs. Axne. I would let you know that a couple of my farmers 
who I spoke with since we have had this trade war have said 
that the conservation practices have been very helpful with 
their bottom line during this downturn with the economy. I 
didn't ask them did it save you, because that is not the case, 
but it has absolutely been a key player in helping them weather 
this downturn.
    Mr. Lohr. Thank you very much.
    The Chair. With the second round of questions completed and 
without objection, I will do a brief third round, primarily 
because we were having such a good conversation related to soil 
health, and I would like to begin by recognizing myself for 5 
minutes and allow Chief Lohr to continue his statements that he 
was making related to my question that had been about soil 
health, what we have seen in the Chesapeake Bay, and I would 
like to give you a couple minutes to finish wrapping that up. 
And Administrator Fordyce, if you would like to add anything, I 
invite you to do so as well.
    Mr. Lohr. Sure, thank you.
    What I was going to explain was how the states are now 
being able to set their own priority areas, and within those 
areas, they can put incentive payments on certain practices, up 
to ten practices. I really think that is going to be very 
beneficial. Again, we are a locally-led agency, but every state 
is different. Every state has different resource concerns. This 
will allow our states, through working with their state 
technical committees and their conservation districts, to see 
what needs that they have for that particular state and area. 
And as I was explaining as well with these incentive contracts, 
being able to give more flexibility to producers to be able to 
address soil health issues and concerns that they have. They 
are CSP-like contracts, but it does not have to cover the 
entire farming operation. They can be very prescriptive and 
specific over where they would like these practices to go, plus 
it gives them the flexibility. Maybe a farmer with cover crops 
wants to experiment planting cover crops, or a certain mix on 
this particular land, and then the next year try over here so 
they can compare the difference. It is not so prescriptive as 
some of the other contracts have to be.
    Just know that we believe strongly with soil health, and we 
will continue making that a priority, emphasizing that across 
our agency with our employees, the training that we do. And we 
have a soil health division within NRCS made up of experts 
around the country. In the past, they have primarily focused on 
external partners and producers and being able to go to various 
shows or workshops and present externally, but they are a great 
resource of information. I am going to try to steer them back a 
little more internally as well, and have them do more training 
for our staff and employees to make sure that we feel like that 
our staff has the training that they need to be able to help 
our producers understand the importance of what soil health can 
mean to their operation.
    The Chair. Thank you.
    Administrator Fordyce?
    Mr. Fordyce. Well, I feel like I need to say something. I 
think the Chief probably needs to take a drink.
    We are very anxious to roll out the pilot, the Soil Health 
Income Protection Pilot. We are very anxious to see what the 
results of that will be. Just very briefly, I think the intent 
of Congress was to roll out a pilot program that you could take 
lower producing soils, put a cover on them, and shorter 
contract periods, so 3 to 5 years, and at the end of that, 
determine if you have improved soil health. Certainly, the 
Chief has touched on it, and NRCS works in this space every 
day.
    But when we talk to farmers, when I travel the country and 
talk to farmers about what is important to them, certainly the 
economics of the ag sector right now is top of mind. But 
certainly, how can we proactively improve soil health, and once 
we drive more adoption of soil health practices that improve 
that soil health and that soil structure, that profitability 
kind of follows. But it is almost--we have talked about 
incentives. We have talked about other things. It is almost a 
chicken or the egg kind of approach because we know--I mean, my 
farm personally, we have been doing cover crops and investing 
in soil health, different types of technologies for 7 or 8 
years, and we are seeing the results of that.
    And so, it is incredibly important that we continue to 
drive, incentivize, and promote soil health, not only as being 
the right thing to do, but also drives some economic benefits 
as well.
    I would like to just--one half of a minute, just--we talked 
about being able to get dollars out the door and will we be 
able to spend the money in CRP, and I will just remind everyone 
that CRP has an acreage cap, not a dollar cap, so depending on 
what--once the offers come in and we set that bar, that will 
kind of drive what our investment is in CRP, as opposed to 
having a dollar cap that limits us.
    The Chair. Thank you very much, Administrator Fordyce, and 
I am excited about this pilot program. This Subcommittee has 
held hearings related to soil health, and we have heard the 
chicken or the egg story from so many producers where they try 
it on one field and kind of tiptoe their way into the use of 
cover crops and other technologies.
    This is pretty exciting and I look forward to hearing about 
the success of this pilot.
    I now recognize my colleague from South Dakota, for 5 
minutes.
    Mr. Johnson. Thank you, Madam Chair. I thought I was done, 
but then the discussion we are having prompted another question 
in my mind.
    I mean, clearly very important, I mean, the conservation 
incentive payments, there is a lot of interest on the field. 
You mentioned talking to producers, Mr. Administrator. Some of 
them want to know how they can provide input. I mean, what is 
the best way--I mean, what should I tell them? I mean, if they 
want some input into what practices should be accepted, what 
guidance should I provide to them?
    Mr. Fordyce. Again, we have a network of 2,124 county 
offices, 51 state offices, and our state executive directors 
are incredibly engaged on a lot of different issues from 
engaging in your part of the world with the late or the early 
fall storms and how we were engaging on services that we would 
provide. State Executive Directors in South Dakota, North 
Dakota, Minnesota, kind of that area were heavily engaged in 
conversations about how can we interact. And this happens 
literally across the country, and a lot of times, those state 
executive directors are engaged with longstanding issues that 
have existed for a long time, or things that have just 
presented themselves that are driven either by weather or 
certain things.
    But, certainly, great assets across the country in those 
state executive directors.
    Mr. Johnson. I mean, I could tell them to just go to their 
local FSA office and they probably assume that, but are there 
any kind of working groups at a state-by-state level that are 
being formed that maybe they could volunteer for?
    Mr. Fordyce. A state technical committee is more probably 
overseen by NRCS, but certainly a great opportunity from 
presenting ideas or concepts about how to participate in 
different types of conservation programs.
    Mr. Johnson. But there is new mechanism being created 
specifically for the CIG?
    Mr. Lohr. I can't speak for FSA, but on the NRCS side, we 
work very closely with our local conservation districts. 
Certainly, we encourage involvement in that. We have local 
working groups that meet to determine what the local needs are, 
and that all filters up to our state technical committee, as 
the Administrator mentioned, that is made up of all kinds of 
partners, from FSA to producers to Farm Bureaus and all of 
those groups that all come together. The state technical 
committees are led by our state conservationists. They meet 
quarterly, and they help shape and guide the direction of the 
states. They are a very important part of that locally-led 
process. Certainly, with the producers you visit, ask them to 
visit with their local NRCS/FSA office, ask about their local 
work groups, and that is what makes the process work.
    Mr. Johnson. Perfect, and the technical committee would, 
ultimately, it might be a good venue for them to engage as 
well.
    I mean, are there any efforts being taken to make sure 
producers understand that their voices are desired in this 
process?
    Mr. Lohr. Absolutely. We, as the Administrator said, at 
NRCS, we have public affairs specialists in every state that 
work very actively with all of their district offices through 
social media, through communication. It is a big part we always 
stress. Whenever I speak to groups, I stress the effects that 
every person has with their voice. We need them involved in 
telling the story, especially our soil health champions. I 
mean, farmers listen to farmers, so if we can get those folks 
willing to step up, take the microphone and tell their story, 
that impacts farmers more than someone working for the 
government.
    But, you are exactly right, being able to let people know 
what options are out there and help them be able to see what 
can work on their farm.
    Mr. Johnson. Well thank you, and you know, please continue 
with that outreach. As you all know better than I do, there is 
almost no substitute for engagement to increase compliance and 
excitement and morale in the country, in the field, about these 
programs. People will forgive you for the product, but man, 
they never forgive you for the process. As you continue moving 
forward, just engage the country as much as you can.
    Thank you.
    Mr. Lohr. Thank you.
    The Chair. Thank you very much. Thank you again to our 
witnesses for being here today. Thank you for joining us. We 
have heard a lot of great themes related to engagement, 
engaging directly with the farmers and producers on the ground, 
ensuring there is ample staff to be able to do that. And I 
appreciate the update that you have given us on the programs 
and where they are and where they are going.
    As we talk about conservation and on the ground programs 
and their impact on everything from climate to the overall 
impact of productivity, we do navigate a lot of preconceived 
notions about what works and what doesn't, and the one thing 
that I like most about this Committee is that we do focus on 
what works, and we hear from you all about the programs that 
are working and what they mean to the farmers and producers 
across this country.
    The farm bill is full of conservation programs that farmers 
and land owners can use to achieve their clean air, soil, and 
water goals, and to optimize the productivity of their land, 
and they use these programs because they work and because they 
are based in science, and because they are practical. And that 
doesn't mean there isn't room for us to do better, to scale up 
and to make changes, but we have to first think about what 
farmers on the ground will implement, and if a program is not 
put in place well or isn't well communicated, it faces 
challenges.
    And so, in the interest of always working towards achieving 
these goals, I appreciate your attendance here today and your 
willingness to talk about how we are communicating some of 
these great programs out to the farmers and producers who use 
them. We can and we should aggressively pursue cleaner water, 
cleaner air, cleaner soils, and a more stable climate, and we 
have these good voluntary programs that do just that. They 
benefit soil health. They benefit overall output, and overall 
profitability for our farmers and producers across the country. 
And we start by looking exactly at what the great work that 
farmers are doing through these conservation programs in the 
farm bill, and I appreciate your time here today. Thank you for 
participating in this hearing, and it is always good to see you 
all. We hope to have you back in the coming months.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Article by Hon. Kim Schrier, a Representative in Congress 
                            from Washington
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Wheat Life
https://wheatlife.org/p_0120_CRP.html
FSA opens CRP general signup
Rule changes mean lower rental rates, no sig[n]up for Douglas County
January 2020
By Trista Crossley

    After several years of 1 year extensions and months of 
anticipation, the first Conservation Reserve Program (CRP) general 
sign-up under the 2018 Farm Bill--and the first general sign-up since 
2015--has finally arrived.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    According to Farm Service Agency (FSA) records, there are nearly 
190,000 acres expiring in Washington in 2019, with another 195,000 
expiring next year. Rod Hamilton, farm programs chief for the Farm 
Service Agency's Washington state office, said this is expected to be 
one of the bigger sign-ups in state history.
    The general sign-up began Dec. 9, 2019, and will run through Feb. 
28, 2020. Under the 2018 Farm Bill, the acreage cap was raised from 24 
million acres to 27 million acres. For most Eastern Washington farmers, 
the most significant change they will see in this general sign-up is a 
reduction in rental rates, Hamilton said. To help pay for the increased 
acreage cap without negatively impacting other conservation programs, 
the U.S. Department of Agriculture (USDA) reduced rental rates to 85 
percent of a county's average rate for the general sign-up. Rates for 
continuous sign-up were reduced to 90 percent of the county's average. 
How much of an impact those reduced rental rates will have on Eastern 
Washington farmers remains to be seen, as Hamilton said they'll have to 
wait until the offers are processed.
    ``The other thing that folks would be interested in is SAFE (State 
Acres for Wildlife Enhancement) acres used to be under continuous sign-
up, so if they were in a SAFE area, their land was (automatically) 
eligible. But now, they will have to meet normal general CRP sign-up 
requirements and compete just like everybody else,'' he said.
    Under the 2018 Farm Bill, many SAFE acres are no longer exempt from 
counting towards a county's CRP acreage limit, which is 25 percent of a 
county's total cropland that is eligible for CRP. In Douglas County, 
which has slightly more than 187,500 acres in CRP, 63,000 acres of 
which are in SAFE, their county acreage cap is 143,700 acres, meaning 
they are roughly 43,800 acres over their cap. According to Hamilton, 
that means farmers in Douglas County will not be able to participate in 
this general sign-up. To change how SAFE acres are classified would 
require Congressional action, and he said that there are folks in 
Congress who are looking at this.
    Michel Ruud, FSA's Douglas County Executive Director, said they've 
made the Natural Resources Conservation Service (NRCS) aware of the 
situation. She added that NRCS is equally concerned and is exploring 
options that might temporarily help producers with expiring contracts. 
Under current rules, Douglas County won't have a CRP general sign-up 
until 2022.
    While there are other counties throughout the U.S. with the same 
problem, Douglas County is the only county in Washington state in this 
predicament. There seems to be a broader trend within this farm bill's 
CRP rules to move more towards water quality initiatives, something 
that is seen in a new initiative, the Clean Lakes, Estuaries, and 
Rivers (CLEAR) initiative. That move is not necessarily in the best 
interests of parts of Eastern Washington.
    ``Congress clearly said water quality is an emphasis (in this farm 
bill). If you are going to have water quality issues, then you have to 
have water,'' Hamilton said. ``Water is more abundant back east than 
here in the West. Although we clearly have water quality issues, we 
also have land miles from any water source.''
    For the most part, Hamilton said CLEAR is in some degree a new name 
for water quality practices they've had in the past. One of the big 
differences is that expiring contracts that are eligible for CLEAR will 
have the opportunity to re-enroll under a 30 year contract.
    ``I think we will see, when the handbook comes out, that a riparian 
buffer is still a riparian buffer, but now it will be considered a 
CLEAR practice,'' he explained, adding that the rules are still being 
ironed out.
    Another thing that could impact some wheat growers are changes to 
the haying and grazing provisions in CRP. Hamilton said while the rules 
for haying and grazing are ``convoluted,'' there may be more 
opportunities for grazing CRP as a midcontract management practice with 
no payment penalty. Under previous rules, if a producer used grazing as 
a midcontract management practice to help stimulate the plant stand, 
there was a 25 percent loss of income (except under certain emergency 
conditions).
    ``The question becomes, how often will we let people do midcontract 
management?'' Hamilton said. ``One of the challenges with the new 
grazing opportunities provision says whatever we allow, we can't allow 
grazing that will cause long-term damage to the stand.'' FSA will be 
working with producers and NRCS to figure out how much grazing will be 
allowed.
    Hamilton said no changes were made to the state's conservation 
priority areas (CPA), but he is hopeful that there will be a potential 
opportunity for revision in 2020 for 2021. In order for land to be 
eligible for a CRP general sign-up, it either has to be in a CPA, have 
a calculated erodibility index of 8 or higher or be in a CRP contract 
expiring that year. In 2015, in order to meet Federal acreage cap 
requirements, Washington State had to trim the amount of cropland that 
was in CPAs by more than 600,000 acres, leaving some farmers with less 
opportunity to enroll during a general sign-up.
    Some of the other changes to CRP, as outlined in FSA's press 
release, include:

  <bullet> Grasslands Sign-ups. CRP Grasslands sign-up helps landowners 
        and operators protect grassland, including rangeland, and 
        pastureland and certain other lands while maintaining the areas 
        as grazing lands. A separate CRP Grasslands sign-up will be 
        offered each year following the general sign-up. The sign-up 
        period for CRP Grasslands in 2020 runs from March 16, 2020, to 
        May 15, 2020.

  <bullet> Land Transition. The CRP Transition Incentives Program (TIP) 
        is an option for producers interested in transitioning land to 
        a beginning farmer or rancher or a member of a socially-
        disadvantaged group to return land to production for 
        sustainable grazing or crop production. CRP contract holders no 
        longer need to be a retired or retiring owner or operator to 
        transition their land. TIP participants may have a lease less 
        than 5 years with an option to purchase, and they have 2 years 
        before the end of the CRP contract to make conservation and 
        land improvements.

  <bullet> Previously Expired Land. Land enrolled in CRP under a 15 
        year contract that expired in September 2017, 2018, or 2019, 
        may be eligible for enrollment if there was no opportunity for 
        re-enrollment and the practice under the expired contract has 
        been maintained.

    Despite such a large number of acres expiring, Hamilton said he 
wasn't concerned about hitting the CRP cap, because everything that is 
expiring is already under the cap. Currently, in the U.S., there are 
approximately 22.3 million acres in CRP, and the cap for the 2020 sign-
up is 24.5 million acres (each year of the 2018 Farm Bill, the cap will 
increase incrementally until it hits the overall cap of 27 million 
acres).
    Hamilton urged farmers who are interested in submitting a CRP 
application to contact their local FSA office sooner, rather than 
later. He expects local offices to be extremely busy with a number of 
other deadlines during the first few months of the year, including 
acreage reporting and Agriculture Risk Coverage and Price Loss Coverage 
program sign-ups.
                                 ______
                                 
  Submitted Letters by Hon. Kim Schrier, a Representative in Congress 
                            from Washington
                                letter 1
November 26, 2019

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture,
  Washington, D.C.

  RE: Support for State Acres for Wildlife Enhancement (SAFE) CRP 
            initiative

    Dear Secretary Perdue:

    We are writing to express strong support from the Washington 
Department of Fish and Wildlife (WDFW) and the Washington State 
Conservation Commission (WSCC) for the State Acres for Wildlife 
Enhancement (SAFE) initiative under the Conservation Reserve Program 
(CRP). CRP's purpose is conservation of soil, water, and wildlife 
resources. SAFE addresses state and regional high-priority wildlife 
objectives by providing habitat for rare and declining species and 
species of social or economic importance. SAFE also provides an 
additional incentive for landowners to provide important wildlife 
habitat while receiving payments that help keep the farmer in business. 
We appreciate your consideration of the critical role that SAFE plays 
in the conservation of wildlife species while maintaining viable 
agriculture production in Washington State.
    Washington has five SAFE programs, primarily focused on developing 
shrub-steppe habitat in the Columbia Basin. The Columbia Basin is a 
major agricultural hub with prime soils and irrigation provided through 
the Columbia Basin Project. Historically people viewed shrub-steppe 
habitat as having little value, leading to conversion of over 50 
percent of the state's shrub-steppe wildlife habitat to other uses, 
primarily agriculture. This conversion has fragmented habitat and 
created isolated populations of several shrub-steppe-dependent species 
including greater sage-grouse and sharp-tailed grouse. Abundant at the 
outset of human settlement, both grouse populations have been in 
decline for decades. Sage-grouse are currently state-listed as 
threatened, and sharp-tailed grouse are state-listed as endangered; 
their population estimates in 2019 were only 676 and 834 individuals, 
respectively. Most of the habitat remaining to support prairie grouse 
and other shrub-steppe dependent wildlife is on private lands. CRP, 
SAFE in particular, is one of the only programs available to conserve 
this habitat at a meaningful scale. WDFW has years of research 
documenting the importance of CRP as habitat for both non-game and game 
species alike.
    Since it started in 2008, SAFE has been a component of continuous 
CRP (CCRP). The continuous sign-up approach and partnership between 
U.S. Department of Agriculture (USDA) and WDFW has allowed for 
targeting wildlife conservation benefits where they are most needed. 
For example, the Sage and Sharp-tailed Grouse SAFE, the largest SAFE 
program in Washington, is located in Douglas County, the core area for 
the remaining populations of these two species. Farmers have partnered 
in conserving grouse habitat by enrolling nearly 73,000 acres in the 
program. CCRP offers additional financial incentives including Signing 
Incentive Payments (SIPs) and Practice Incentive Payments (PIPs) that 
general CRP does not offer.
    The Washington SAFE programs require a diverse seed mix of mostly 
native species to provide maximum habitat benefits to the focal 
wildlife species. These seed mixes have higher costs than low diversity 
introduced species seed mixes, but they provide much higher wildlife 
habitat value. The majority of the Washington SAFE programs are located 
in arid landscapes that make it a challenge to establish CRP cover. 
These projects often take years to establish and can require 
significant work from farmers controlling weeds to ensure success. The 
additional incentives from SIPs and PIPs are important to farmers; WDFW 
and WSCC support providing incentive payments to farmers who invest the 
time and resources needed to establish successful SAFE projects.
    Washington Department of Fish and Wildlife and the State 
Conservation Commission value the voluntary and incentive-based 
approach of farm bill conservation programs. WDFW and the WSCC have 
partnered for years with the Farm Service Agency (FSA) and the Natural 
Resources Conservation Service (NRCS) to provide technical assistance 
to farmers enrolled in farm bill programs including CRP. WDFW Private 
Lands Biologists provide technical assistance to farmers enrolled in 
SAFE. SAFE has been a popular program in Washington; during some of the 
early sign-ups farmers camped outside of county USDA Service Centers to 
ensure they could sign-up while acres were available. Through October 
2017, farmers enrolled over 112,000 acres in SAFE, representing just 
under ten percent of the 1.19 million acres of CRP in Washington. WDFW 
sincerely appreciates USDA for its investment in wildlife conservation 
through SAFE. However, despite popularity and demonstrated success, FSA 
has not offered an opportunity for farmers to enroll in SAFE since 
October 2017. The state has 17,297 allocated but unenrolled acres for 
these programs that could provide important wildlife habitat. WDFW 
biologists have been fielding questions from farmers interested in 
enrolling in SAFE for over 2 years but have had to direct farmers to 
other opportunities--most of which do not provide wildlife conservation 
benefits or financial incentives comparable to SAFE. The 2+ year freeze 
on SAFE enrollment has resulted in lost opportunities for both wildlife 
conservation and farmers.
    SAFE is a critical tool for conserving wildlife habitat for 
multiple state-listed and declining species in Washington. It is 
imperative that USDA reopen the program for enrollment under the 
current CCRP structure and provide sufficient financial incentives to 
compensate farmers who enroll in SAFE. In the interest of furthering 
wildlife conservation through SAFE and other CRP wildlife practices and 
offering voluntary incentive-based conservation options to farmers, 
WDFW and the WSCC request the following:

  <bullet> USDA prioritize enrollment and implementation of SAFE and 
        other wildlife practices--including Habitat Borders for Upland 
        Birds (CP33) and Pollinator Habitat (CP42) through future CCRP 
        sign-ups;

  <bullet> USDA offer SIPS and PIPs for SAFE and other CCRP practices 
        as authorized in the Agriculture Improvement Act of 2018 (2018 
        Farm Bill);

  <bullet> USDA offer 50 percent cost share of seed costs for SAFE and 
        other CCRP practices as authorized in the 2018 Farm Bill; and

  <bullet> To the maximum extent practicable, USDA maintain at least 
        the minimum CCRP enrollment levels directed in the 2018 Farm 
        Bill (8 to 8.6 million acres through 2023) including wildlife 
        practices as well as the water quality practices that have been 
        the focus of CCRP sign-ups under the new farm bill thus far.

    We appreciate your consideration of these requests. WDFW and the 
WSCC value our partnerships with farmers and USDA to provide quality 
wildlife habitat through SAFE and other CRP wildlife practices and we 
want to continue these efforts in the future. We look forward to 
working with you and your staff to continue the success of CRP in 
conserving soil, water, and wildlife resources.
            Sincerely,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Kelly Susewind,
Director, Washington Department of Fish and Wildlife

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Dr. Carol Smith
Executive Director, Washington State Conservation Commission

CC:

The Honorable Jay Inslee, Governor of Washington State
The Honorable Patty Murray
The Honorable Maria Cantwell
The Honorable Suzan K. DelBene
The Honorable Rick Larsen
The Honorable Denny Heck
The Honorable Cathy McMorris Rodgers
The Honorable Jaime Herrera Beutler
The Honorable Dan Newhouse
The Honorable Pramila Jayapal
The Honorable Kim Schrier
The Honorable Derek Kilmer
The Honorable Adam Smith
Casey Katims, Executive Director, Governor Inslee's D.C. Office
                                letter 2
December 20, 2019

  Congresswoman Kim Schrier,
  1123 Longworth HOB,
  Washington, D.C.

    Dear Congresswoman Schrier,

    The Foster Creek Conservation District Board of Supervisors and 
staff are extremely concerned that, over the next few years, because of 
the new farm bill rules Douglas County, in central Washington, stands 
to lose up to 50,000 acres currently in the Conservation Reserve 
Program (CRP). The problem has come about because areas enrolled in the 
associated State Acres for Wildlife Enhancement (SAFE) program and 
previously exempt from the CRP County Cap are no longer eligible for a 
waiver. SAFE acres were considered continuous CRP, the same as acres in 
the Conservation Reserve Enhancement Program (CREP), and were not 
subject to a county cap. In the new farm bill, however, SAFE was not 
included in the exemption.
    The Foster Creek Conservation District works closely with 
agricultural producers farming in a region with a unique landscape of 
high elevation, low rainfall shrub-step habitat, bordered on three 
sides by the Columbia River. The SAFE acres with CRP in Douglas County 
provide critical habitat for four species of interest: the Columbia 
basin pygmy rabbit, the Greater sage grouse, Washington ground 
squirrel, and the Columbia sharp-tail grouse.
    Douglas County currently has approximately 191,000 acres in CRP/
SAFE. It has taken years to properly establish these acres, and have 
required considerable maintenance and weed control efforts by 
participating farmers. The program has remained very popular with the 
landowners and has proven to be successful for the wildlife targeted. 
The local sage grouse population is the only one in western United 
States that is increasing in numbers. The pygmy rabbits that were 
nearly extinct are being re-introduced from captive breeding colonies 
into the county. Recently, it was discovered they were also breeding 
successfully outside of these controlled areas. The Douglas County 
Voluntary Stewardship Program (VSP) is based on these lands continuing 
to provide habitat, by protecting and enhancing critical areas ``within 
the area where agricultural activities are conducted''. These acres are 
also necessary for producers to have the ability to enroll in the 
District's Habitat Conservation Plan (HCP), and receive U.S. Fish and 
Wildlife's Safe Harbor Agreement protections in order to continue their 
farming operation.
    We urge you to help fix the rule in the new farm bill, amending it 
to allow SAFE acres to be considered continuous CRP and exempt from the 
county cap. Over the last decade, the government has made a significant 
investment in our county to create critical habitat for threatened 
species while providing agricultural producers with risk management 
tools such as Safe Harbor. Let's not squander this effort of money and 
time. We ask you to help us find an exemption for SAFE acres in Douglas 
County.
            Sincerely,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
John McLean,
Foster Creek Board chair,

on behalf of the Foster Creek Conservation District Board and staff.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Matthew J. Lohr, Chief, Natural Resources 
        Conservation Service, U.S. Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. Chief Lohr, can you provide a figure for the number of 
outreach and town hall meetings field staff have conducted? At the 
national level, how are you informing producers of the various state 
level sign up timelines, in addition to their county and state email 
lists?
    Answer. Although we do not keep count of each meeting conducted at 
the state and field levels, we can advise that State Conservationists 
are required to post program signup information in the state and local 
media 30 days prior to signup. Public announcements are made at State 
Technical Committee meetings and information is also distributed to 
local community-based organizations. At the national level, through our 
Outreach and Partnerships Division, we distribute, via email, program 
signup information to over 60 different community-based organizations 
who then distribute to their respective customer segments.

    Question 2. Chief Lohr, you mentioned NRCS's student intern 
program, the Pathways Program, during the hearing. Can you elaborate on 
how that program works? How many interns do you typically have in the 
program each year? How many interns end up working 640 hours, enough to 
be automatically converted into a full-time employee?
    Answer. The Internship Program is one of three components of the 
overall Pathways Program (interns, Recent College Graduates, and the 
Presidential Management Fellows Program). The Pathways Programs are 
limited in nature, intended to provide agencies a supplemental 
authority to use as part of an overall workforce planning strategy. The 
Pathways Programs are intended to be more than simple excepted service 
hiring authorities; they are intended to fulfill a need for 
developmental programs that will inspire interest in more permanent 
Federal service. The purpose of the program is to foster a positive 
experience for participants that will help prepare them for successful 
careers in government--either immediately or at some future date.
    The Internship program is designed to provide students enrolled in 
a wide variety of educational institutions, from high school to 
graduate level, with opportunities to work in Federal agencies and 
explore Federal careers while still in school and while getting paid 
for the work performed. Students who successfully complete the program 
may be eligible for conversion to a permanent job in the civil service.
    Interns generally work over the course of two to three summers and 
are in a leave without pay status during the school sessions, at times 
they can work throughout the school year on a part-time basis if school 
schedule and location is conducive. To be eligible for conversion, 
interns must: Complete at least 640 hours of work experience acquired 
through the Internship Program; Complete their degree or certificate 
requirements; Meet the qualification standards for the position to 
which the Intern will be converted; Meet agency-specific requirements 
as specified in the Participant's Agreement, and Perform their job 
successfully.
    Since 2013 NRCS has hired just over 1,900 interns, an average of 
nearly 317 new hires per year. Currently NRCS has 416 active interns 
and is projecting nearly 300 to 400 additional interns from recent 
recruitment initiatives. Approximately 200 of the current Interns will 
be completing the program and may be eligible for conversion to 
permanent appointments during Fiscal Year 2021.
    At this time, we do not have the data to say exactly how many 
interns meet the 640-hour requirement, however from fiscal years 2013-
2019 the average number of conversions of those entered into the 
program has been 51 percent. We are projecting 60 intern conversions 
from December 2020 graduates and approximately 125 are eligible for 
conversion after spring graduations.

    Question 3. Voluntary conservation programs authorized by the farm 
bill provide financial and technical assistance for practices that have 
co-benefits, including increasing soil carbon. Please explain how each 
of the conservation programs administered by your agency supports 
greenhouse gas reduction and carbon storage practices? How is NRCS 
evaluating the effectiveness of these practices to help farmers and 
ranchers mitigate and adapt to climate change?
    Answer. NRCS administers many farm bill programs with the most 
prominent being the Environmental Quality Incentives Program, 
Conservation Stewardship Program, Agriculture Conservation Easement 
Program-Wetland Reserve Easements, and the Regional Conservationist 
Partnership Program. The common thread running through these programs 
is the site-application of conservation practice standards to address a 
producer's resource concerns. Many of the 170 individual conservation 
practices offered have the potential to reduce greenhouse gas and 
increase carbon storage. Please recognize it is difficult to 
specifically measure either greenhouse gas reductions or carbon storage 
increases because of the specificity of the farming conditions (soil 
type, rain fall, growing days, length of practice establishment, etc.).
    NRCS models the effectiveness of practices through the Conservation 
Effects Assessment Project (CEAP). Utilizing statistical modeling the 
CEAP team can calculate at a large scale (river basin) how conservation 
practices from farm bill programs are affecting carbon storage and 
greenhouse gas emissions. These reports are used by USDA to inform our 
conservation planning efforts.
    NRCS has a tool to estimate greenhouse gas emissions on farms, 
COMET-Farm. The estimates produced are calculated at the field or farm 
operation level and attempt to model farming activities. The tool is 
not used to document greenhouse gas levels at the farm bill program 
level as multiple programs may be used on a farm operation. The tool 
can be used at the field level by our local planners to go over 
specific results and aid in the tailoring of conservation practices for 
farmers and ranchers to mitigate and adapt to the local environment.
    NRCS is confident that farm bill programs are having positive co-
benefits by reducing greenhouse gas emissions and increasing soil 
carbon. An example would be programs that install cover-crops and no-
till practices.

    Question 4. CSP sign-ups are continuous and ongoing. Based on the 
FY 2019 sign-up, please provide an update of interest in the program. 
How has interest in the FY 2019 sign-up compared to previous years' 
sign-ups?
    Answer. Interest in CSP remained consistent in FY 2019 when 
compared to FY 2018 and lower than FY 2014 through FY 2017. The largest 
difference appears in the number of contracts obligated due to changes 
introduced by 2018 Farm Bill, including the introduction of the 
Grasslands Conservation Initiative, and the conversion from an acres-
based to a cash-based funding cap.

------------------------------------------------------------------------
      Fiscal Year         Applications Received     Contracts Obligated
------------------------------------------------------------------------
           2019 *                   22,464                    5,692
             2018                   22,530                   10,596
             2017                   26,577                   12,317
             2016                   30,404                   12,336
             2015                   28,827                   17,174
------------------------------------------------------------------------
* In addition to the numbers reflected in the table, CSP-Grasslands
  received 12,348 applications and 9,507 contracts obligated

    Question 5. Overall, what assistance and resources has NRCS made 
available to landowners to improve soil health? How have the resources 
been utilized and what additional authorities, if any, are needed to 
further additional soil conservation across the country?
    Answer. Soil health is one of NRCS' top priorities for 2020. Each 
state is developing a strategy to increase delivery of soil health 
assistance to farmers. NRCS programs, such as the Environmental Quality 
Incentives Program (EQIP) and Conservation Stewardship Program, provide 
technical and financial assistance. A new Soil Health Management 
Conservation Activity Plan and Soil Testing activity through EQIP 
expands opportunities for assistance to producers. The plan helps 
producers evaluate soil health concerns and develop a transitional 
cropping management plan that follows the four principles of soil 
health, and the soil testing activity is used to measure the physical, 
biological, and chemical characteristics of the soil and monitor the 
effectiveness of agronomic conservation practices. NRCS is also 
providing soil health training to all its field employees.
    The Conservation Innovation Grant Soil Health Demonstration Trials 
provide additional opportunities to further soil conservation by 
providing awards for partners to work directly with producers to 
demonstrate long-term, successful soil health management systems, or 
production systems being transitioned to a management system that 
incorporates all the soil health principles.
    NRCS is coordinating the Science of Soil Health project with 12 
cooperating universities, collecting soil health metrics from a range 
of soils, crops, and management systems across the country. We will use 
the information to make recommendations about measuring soil health 
through scientific methods. We are also assisting with the 
interpretation of laboratory data, making it useful for landowners and 
decision makers.
    NRCS has adequate authorities to facilitate soil health 
improvements.

    Question 6. How is NRCS working with research organizations 
(including Federal, state, and nonprofit) to examine and develop soil 
conserving practices and to assess their impact on production? How has 
the agency transferred this research and other technology advancements 
to its field office practices?
    Answer. NRCS has robust working relationships with Federal and 
state agencies, nonprofits, and academia with respect to research.
    NRCS is coordinating the Science of Soil Health project with 12 
cooperating universities. The project is designed to collect soil 
health metrics from a range of soils, crops, and management systems 
across the country. Each project includes a business as usual practice, 
a soil health practice, and a reference/native condition. The projects 
have already yielded an increased understanding of sampling and 
laboratory limitations and updated guidance. The data gathered will be 
stored in a newly developed interim database. The database model 
development team is working across USDA, non-profit organizations and 
state universities and agencies to write guidance documentation for a 
permanent database for interoperability and data-sharing. This will 
require some new techniques that allow us to protect private 
information while getting the most possible good out of all information 
gathered.
    The data gathered and conclusions generated will be supplied to all 
agency personnel, landowners, non-government institutions and the 
general public. Agency personnel will use the information to make 
recommendations about measuring soil health through scientific methods. 
The results will also inform soil health scoring and assessment 
software and systems such as the Soil Management Assessment Framework. 
The agency recently developed a soil testing activity to help quantify 
the effect of agronomic conservation practices. In addition, the Soil 
Health Demonstration portion of the Conservation Innovation Grants On-
Farm Conservation Trials is a prime example of how new technology 
advancements are transferred to producers.
    Another example is the PLANTS database and website 
(plants.usda.gov) that provides basic information (e.g., scientific 
names, common names, distributions, nativity, legal status) on plants 
occurring in the United States to be used in conservation planning. The 
PLANTS website is one of the Department's most visited websites, the 
information on this site serves as a national and international 
standard. In 2019, PLANTS had 2,535,767 users (2,517,508 were new) with 
3,968,507 sessions involving 12,666,076 page views. Regarding users, 
1,784,272 (69.89%) were from the U.S., including Guam, Northern Mariana 
Islands, Puerto Rico, and the U.S. Virgin Islands. There were 748,576 
(30.00%) users from outside the U.S. The National Plant Data Team has 
dozens of working relationships with researchers, including formal 
agreements/relationships with the Academy of Natural Sciences at Drexel 
University. Harvard University, Smithsonian Institution, University of 
North Carolina-Chapel Hill, U.S. Army Corps of Engineers, U.S. 
Environmental Protection Agency, U.S. Fish and Wildlife Service, and 
U.S. Geological Survey.

    Question 7. CSP was amended to require contract renewal applicants 
to compete with new applications. During FY 2019, how many existing CSP 
contract holders sought to renew or expand their contract? Describe the 
process by which these contract renewals competed with new 
applications? How many of those that applied for renewal were 
ultimately not re-enrolled in the program?
    Answer. The Agriculture Improvement Act of 2018, authorized NRCS to 
extend contracts eligible for renewal for a sixth year so that 
producers would be able to compete for a contract renewal under the new 
regulation. As such, the NRCS did not hold a CSP renewal sign-up in 
Fiscal Year 2019. However, over 3,000 producers elected to extend their 
contracts for a sixth year, thus making them eligible to compete for a 
renewal contract in fiscal year 2020.

    Question 8. This past November, NRCS announced its 1st round of 
funding for the On-Farm Conservation Innovation Trials, which includes 
a new Soil Health Demonstration Trial. How much funding was requested 
amongst competitive applications this award round? When will you begin 
learning from the first demonstration projects? When will the next 
round of funding become available?
    Answer. The first On-Farm Conservation Innovation Trials funding 
announcement, released in May 2019, made available $25 million to 
partners. Seventy-three proposals were received requesting almost $140 
million. Projects began in spring 2020 and we anticipate that it will 
take some time for results to emerge. Initially, partners need to 
recruit participating producers and then implement conservation 
practices and systems on their lands. In most cases, a full 
understanding of the conservation and financial effects of these 
projects will not be available until the projects are completed.
    The 2020 On-Farm Conservation Innovation Trials funding 
announcement was made on March 12, 2020.

    Question 9. The 2018 Farm Bill established new ``Incentive 
Contracts'' under EQIP. Can you please provide specifics for how this 
program will be implemented?
    Answer. Some aspects of these new provisions are still under 
development. NRCS requested comments on the new EQIP incentive 
contracts through the public comment solicitation in the preamble of 
the EQIP interim rule. Specifically, the Agriculture Improvement Act of 
2018 did not set a payment limit for incentive contracts so NRCS is 
requesting feedback on the $200,000 payment limitation set by the 
agency. NRCS chose this limit to allow producers participation in both 
EQIP incentive contracts and the Conservation Stewardship Program (CSP) 
which also has a $200,000 payment limit, as a streamlining and 
coordination decision between the two similar programs.
    The agency created a new subpart D ``Incentive Contracts'' in the 
EQIP regulation. This subpart outlines the processes and requirements 
for high priority areas, incentive contract selection, contract 
requirements, contract period, and payment rates and restrictions. A 
brief summary follows:
    High priority areas--States will determine high priority areas, in 
consultation with the State Technical Committee. These areas must 
encompass every region in the state (to allow participation by all 
eligible applicants) and may overlap with other high priority areas. 
States will also identify up to three priority resource concerns within 
each high priority area, and the incentive practices that will address 
these resource concerns.
    Incentive contract selection--NRCS will give priority to 
applications that address eligible priority resource concerns, and will 
evaluate these applications relative to other similar, agriculture and 
forest operations.
    Incentive contract requirements--Participants must agree to 
complete at least one incentive practice. The minimum contract area is 
the planning unit (typically the field level) which differs from CSP 
which requires the producer to enroll the entire area of operation.
    Incentive contract period--NRCS will base the contract period on 
the time needed to achieve the desired conservation benefits. This 
period will be no less than 5 and up to 10 years.
    Incentive contract payment rates and restrictions--Incentive 
contract payments will be comprised of two types of payments: 
implementation payments for conservation practices and activities (same 
as general EQIP conservation practices and activities), and annual 
payments for operation and maintenance of incentive practices, and 
income foregone by the participant. NRCS is developing criteria for 
annual payments.
    Incentive contract restrictions--The aggregate payment limitation 
to a person or legal entity may not exceed $200,000 directly or 
indirectly. Additionally, the agency will allow an eligible joint 
operation a contract limit of up to $400,000. This increase in payment 
and contract limits aligns with CSP.

    Question 10. Chief Lohr, you mentioned NRCS wants to focus on 
hiring for entry-level, farmer-facing positions. When interns are hired 
full-time, what types of positions are they typically hired for? What 
percentage of entry-level employees come from the Pathways Program? 
From the Recent Graduate Program? Are new employees hired from the 
Pathways Program able to be trained more quickly? What kind of outreach 
and advertising do you do to find candidates for the Pathways Program?
    Answer. The majority of the Pathway Program positions within NRCS 
that are converted to full time positions are Soil Conservationists, 
Rangeland Management Specialists, Soil Scientists and Civil/Agriculture 
Engineers in that order. From Fiscal Years 2013 through 2019, NRCS 
converted approximately 787 interns to permanent appointments, which is 
46 percent of entry-level positions. Pathways interns typically work 
for the agency prior to conversion, which accelerates their 
professional development. The Recent Graduate Program allows for hiring 
applicants that are within 2 years of their graduation date; although 
the majority of them are hired within the first few months of 
graduation, there is a small percentage that may have been in the 
workforce for a period of time before being hired. Many states perform 
outreach within their area of operations at local universities. 
Opportunities are posted on the USAJobs.gov website.

    Question 11. The 2018 Farm Bill provided additional funding for the 
Conservation Stewardship Program, how much of it has been spent on CSP 
renewals and how much remains? What are your plans for the remainder of 
CSP funds?
    Answer. The table below shows the distribution of CSP financial 
assistance (FA) funds in FY 2020. CSP--Grasslands Conservation 
Initiative (GCI) funds were allocated first. The remaining FA funds 
have been allocated between classic (new) and renewals at a 60:40 
ratio.

   Conservation Stewardship Program Allocation of Financial Assistance
                    October 1, 2019-January 28, 2020
------------------------------------------------------------------------
 
------------------------------------------------------------------------
                CSP-GCI                          $123,734,000
     CSP--Classic (New)                          $272,533,545
          CSP--Renewals                          $170,121,000
------------------------------------------------------------------------
Source: NRCS Financial Assistance Programs Division.

    Question 12. NRCS is currently well below the authorized staffing 
ceiling for FY 2020 of 10,445. The Committee greatly appreciates the 
increase in the ceiling approved last fall to help alleviate the 
workload pressures we continue hear about, but notes that NRCS was 
already well below their prior ceiling. Please walk the Committee 
through how the agency plans on addressing this large staffing gap to 
ensure that landowners receive the customer service that we all strive 
to provide?
    Answer. Fully staffing the NRCS to the levels budgeted continues to 
be a high priority. Leadership in NRCS is working diligently with the 
Farm Production and Conservation Business Center to fill vacancies 
across the nation.
    Over the next 9 months, NRCS will focus hiring efforts to bring on 
entry-level employees. We will maximize the use of direct hire 
authority which has been given to us by the U.S. Office of Personnel 
Management as well as special authorities to increase the hiring of 
veterans and Pathways students. NRCS is committed to continual 
improvement in our hiring and retention efforts.

    Question 13. We have also heard that the Farm Production and 
Conservation Business Center has been somewhat of an impediment to the 
hiring process creating an extra ``hoop to jump through'' rather than 
providing for the efficiencies as intended. Can you please speak to the 
business center's role in the hiring process and whether you feel that 
they are responding in a timely manner to allow NRCS to meet its 
staffing ceiling.
    Answer. The Farm Production and Conservation Business Center Human 
Resource Division (HRD) works collaboratively with hiring managers in 
NRCS to provide technical, operational, regulatory, and advisory 
support throughout the hiring process. The process is very much the 
same process that existed when HRD was within NRCS. The HRD support 
role begins when the agency notifies them of a hiring need and 
continues through each step of the process until the new employee is on 
board. HRD provides technical and advisory support by developing job 
descriptions, conducting job analysis, developing assessment tools, job 
opportunity announcements, evaluating candidate qualification, applying 
veteran's preference, developing certificates of qualified candidates, 
making job offers, and on-boarding new employees.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Chief Lohr, we've heard concerns the last several years 
about changes in tile setbacks that weren't officially shared with 
landowners or industry and seem to just have started to appear during 
NRCS' interactions with landowners and contractors. Can you walk us 
through any changes that have happened over the last decade to the 
requirements on tile setbacks? In addition to the confusion among those 
designing water control systems, we're also hearing concerns that you 
are creating more soil salinity issues, rather than addressing them, 
with these changes. And have there been changes in some states and not 
others?
    Answer. Since the dramatic increase in demand for wetland 
determinations and interest in drainage starting in 2009, NRCS has been 
working to provide consistent and timely information to producers so 
they can make land management decisions. In 2010, NRCS in the 4-State 
Prairie Pothole Region (PPR) began collaborating on a consistent 
methodology for providing setback distances between wetlands and 
drainage systems. From 2015 through 2018, NRCS implemented a consistent 
methodology and recalibrated setback distances following Web Soil 
Survey updates in North Dakota. It is important to note that producers 
who act in reliance on information provided before a soil survey update 
will not be found in non-compliance of the wetland conservation 
provisions of the 1985 Food Security Act if they adhere to that 
guidance. It should also be noted that due to unique environmental 
factors, there are certain classes of wetlands that require site-
specific analysis in order to ensure that drainage does not cause the 
conversion of wetlands and that provides unique setback distances for 
each site.
    NRCS is currently working to improve drainage setback methodology 
in the PPR by freezing soil survey data for this analysis, seeking 
scientific peer review, and delivering the results to producers through 
a common self-service web platform, as well as providing assistance 
through their local field offices. In addition to these enhancements, 
the improved process will reduce the number of sites requiring site-
specific analysis.
    With increased precipitation and rising water tables in the PPR, 
NRCS is actively working with producers to address soil salinity issues 
to the maximum extent possible. It is true that water leaving 
subsurface-drained fields can contain salts that have leached from 
cropland fields; however, no amount of drainage can effectively 
``cure'' a naturally saline site in times of elevated water tables. 
Most salinity is not associated with wetlands and producers are using 
management techniques on a large scale to capture soluble salts when 
leached in high precipitation years. These techniques are not effective 
for soils naturally high in sodium. NRCS can assist producers in 
identifying whether the soils are saline or sodic and can properly 
prescribe voluntary technical and financial assistance for conservation 
practices like soil salinity management and drainage water management 
to help reclaim saline soils and to guard against soils becoming 
saline.

    Question 2. Chief Lohr, as you're aware, we specifically made 
community colleges eligible for EQIP Conservation Innovation Grants in 
the 2018 Farm Bill. I encourage you to build a working relationship 
with the community colleges throughout the country who have their own 
farms and play a key role in educating and training farmers on the best 
conservation and agronomic practices for their operations through hands 
on experiences. I know that the Community College Alliance for 
Agriculture Advancement are eager to partner with NRCS and use their 
farming operations and teaching expertise.
    Answer. We look forward to working with community colleges, in 
particular the Community College Alliance for Agriculture Advancement, 
to explore ways to work collaboratively through CIG.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. Chief Lohr, would you be willing to continue our 
dialogue on conservation collaborative grants and work with my office 
to ensure all farmers, including socially-disadvantaged farmers, can be 
served by this opportunity.
    Answer. I welcome the opportunity to continue our dialogue on the 
conservation collaboration grants. NRCS has consistently increased our 
efforts to assist socially disadvantaged farmers and ranchers. Since 
Fiscal Year 2015, NRCS has invested $33.2 million in partnership 
agreements with community-based organizations and other private 
entities to assist all historically under-served groups. Of this 
investment, $20.4 million was awarded to Black entities specifically to 
assist socially disadvantaged farmers and ranchers, primarily black 
rural and urban farmers. This new conservation collaboration grant 
process provides us an opportunity to increase our investment and 
include additional partners to expand our outreach and technical 
assistance efforts to more historically under-served groups.

    Question 2. The Regional Conservation Partnership Program is of 
great importance to the State of Ohio. The 2018 Farm Bill modernized 
the program to include new flexibilities for both partners and 
producers. Chief Lohr, could you walk us through the rollout process of 
the new rule and outreach steps the agency will take to educate 
stakeholders of the new changes. Additionally, please walk us through 
the roll-out timing for the program's next few funding announcements.
    Answer. The Regional Conservation Partnership Program Interim Final 
Rule was published in the Federal Register on February 13, 2020. NRCS 
issued a companion press release inviting public review and comment on 
the rule. State Conservationists were provided detailed materials that 
explain the contents to enable them to conduct outreach efforts at the 
state and local levels. Nationally, a stakeholder meeting to review 
details of the rule was held on February 14, 2020, in Washington, D.C. 
The comment period for the Interim Final Rule closed on April 13, 2020. 
In addition, NRCS updated its website to include links to the Interim 
Final Rule and related documents for easy access by the public.
    In calendar year 2020, NRCS released the Alternative Funding 
Arrangement funding announcement and the announcement of 2019 RCPP 
awards; the 2020/2021 RCPP ``Classic'' funding announcement took place 
during the summer; and the announcement of 2020 Alternative Funding 
Arrangement awards took place in the fall. The final rule will not be 
published until calendar year 2021 though the evaluation and 
consideration of the public comments on the interim final rule was 
completed in Fiscal Year 2020.

    Question 3. The 2018 Farm Bill included many common-sense changes 
to RCPP, including increased funding for Critical Conservation Areas or 
CCAs. Ohio is part of the Great Lakes Region which is designated as a 
CCA. I thank the Department for maintaining this region as part of the 
CCA, as there continue to be critical resource concerns in this area. 
Chief Lohr, can you please share what steps the agency is taking to 
ensure adequate funding is going towards these Critical Conservation 
Areas and ultimately, working to address high-priority concerns for 
producers in my state?
    Answer. The Agriculture Improve Act of 2018, requires that 50 
percent of RCPP funding go to CCA projects. The statute also requires 
USDA to do outreach to CCA partners to encourage proposal submissions.
    The RCPP Interim Final Rule requests stakeholder comment on the CCA 
and priority resource concern designations.
Question Submitted by Hon. Doug LaMalfa, a Representative in Congress 
        from California
    Question. Chief Lohr, California has had great success using both 
EQIP and RCPP for conservation projects targeting the Tricolored 
Blackbird. Producers are receiving payments through these programs to 
allow their feed crops for their dairies to serve as habitat for the 
birds and they are therefore unable to harvest their entire crop. 
However, AGI caps have limited participation for some landowners in 
this initiative. Can the AGI waiver authority that was re-instituted in 
the 2018 Farm bill be applied to these projects?
    Answer. The Agricultural Act of 2014 authorized Adjusted Gross 
Income (AGI) waivers for RCPP, so AGI waivers have always been 
available for the program. Producers interested in participating in the 
Tricolored Blackbird RCPP project, as is true for all active RCPP 
projects, are eligible to apply for an AGI waiver. The RCPP AGI waiver 
was maintained in the 2018 Farm Bill statute.
Response from Hon. Richard Fordyce, Administrator, Farm Service Agency, 
        U.S. Department of Agriculture
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. The 2018 Farm Bill made a number of changes to the CRP 
payment structure including, one-time sign-up incentives, reduced 
annual rental rates, and cost-share payment limits. How are these 
changes expected to impact continuous and general sign-up interest? 
What additional incentive payments does FSA plan to make available 
under CRP?
    Answer. The 2018 Farm Bill lowered payment rates and used those 
savings to increase the acreage caps. USDA will monitor enrollment 
relative to the acreage caps and will take appropriate actions to 
educate producers on the financial and environmental benefits of CRP, 
and will consider using the Secretary's discretion to encourage signup.

    Question 2. FSA is required to enroll a minimum number of acres in 
CRP grassland contracts, achieve minimum enrollment targets for 
continuous contracts, and allocate available CRP acres to states based 
on historical enrollment levels. How does FSA plan to meet these 
enrollment requirements?
    Answer. USDA has reviewed historical enrollment and will continue 
to monitor signup under CRP; we will revisit any administrative 
latitude as necessary to encourage additional signups where appropriate 
and possible. Both the national office and our field offices have 
undergone extensive outreach efforts to encourage producers to consider 
the financial and environmental benefits of participating in CRP.

    Question 3. The 2018 Farm Bill expanded TIP eligibility to all 
expiring CRP contract holders. How is this change expected to increase 
TIP participation rates for eligible CRP contract holders? What 
outreach actions is FSA taking to promote TIP to historically under-
served producers (e.g., beginning, socially-disadvantaged, and veteran 
farmers and ranchers)?
    Answer. FSA relies heavily on partner organizations to assist with 
outreach and education efforts. Through a cooperative agreement with 
the National Sustainable Agriculture Coalition and Center for Rural 
Affairs, FSA was able to identify barriers for Transition Incentives 
Program (TIP) participation by beginning, socially disadvantaged, and 
veteran farmers and ranchers. Efforts to improve outreach include 
notifying landowners earlier and more frequently about enrolling in 
TIP, increasing targeted outreach to landowners, and improving 
communications and outreach with landowners who utilize third parties 
to manage their CRP contracts. Plans are underway to develop employee 
training, utilize USDA's Beginning Farmer and Rancher Development 
network, and coordinate with State Departments of Agriculture and 
state-based land link programs to gain buy-in on being a listed 
resource for TIP to offer landowners support on land transition issues.

    Question 4. How is the inclusion of nongovernmental organizations, 
from the 2018 Farm Bill, expected to impact CREP?
    Answer. USDA will work with nongovernmental organizations 
interested in becoming a partner in a CREP project under the new 
statutory provisions. USDA does not expect any significant impact to 
CREP resulting from the 2018 Farm Bill allowing nongovernmental 
organizations as CREP partner.

    Question 5. Forested riparian buffers are a key component of the 
Chesapeake Bay states' clean-up plans. Virginia's goal is to plant 
48,354 acres and, and yet, as of 2018, the state only had 4,372 acres 
on the ground. CREP is key to achieving these goals. Please provide 
additional information regarding implementation of riparian buffers 
payments and how is this expected to expand the number of CREP 
applications.
    Answer. USDA will work with CREP partners to best implement the new 
CREP provisions under the 2018 Farm Bill to further appropriate goals 
regarding riparian buffer acres in the Chesapeake Bay Watershed. The 
payment for riparian buffers under a CREP is just one of the changes 
specified in the 2018 Farm Bill that could impact the number of offers 
submitted. In addition, each CREP is based on the terms and conditions 
negotiated with the CREP partner (e.g., the state). The combination of 
these factors, and others such as commodity prices and land values 
which vary over time, will impact whether the number of offers to 
enroll land increase.

    Question 6. How does FSA plan to include the new provisions from 
the 2018 Farm Bill and other changes into existing CREP agreements? How 
long will it take? Can the Agency provide standard language for 
amendments and expedite the process? Are there any new CREP agreements 
forthcoming? Are there states seeking to amend existing agreements?
    Answer. The 2018 Farm Bill ``grandfathered'' existing CREP 
agreements. Any state that wants to keep the provisions of the existing 
agreement unchanged may do so and any state that wants to revise their 
agreement may contact FSA. We will work with the state to make sure 
they understand the new CREP provisions under the 2018 Farm Bill. The 
timeline to reach a new agreement is predicated on the extent of the 
changes. FSA will work with states as they request to amend existing 
CREP agreements.

    Question 7. In addition to CRP, FSA is also implementing a disaster 
program, ARC-PLC and dairy program sign-ups. We've already heard about 
field staff shortages. Given that, how is staff managing that workload? 
It's important producers have access to and enough time with FSA staff.
    Answer. FSA has allocated more than $3 million in overtime funds to 
County Office staff to assist in the implementation of programs. In 
addition to this, FSA has also provided over 569 staff years in 
temporary allotments to states to help bolster service to farmers 
across the nation. FSA has worked closely with State Executive 
Directors to develop action plans for the completion of program signups 
and to determine if additional resources are needed to ensure producers 
are efficiently and effectively served.

    Question 8. Is FSA able to measure the amount of carbon stored in 
the soil through CRP?
    Answer. Here are the most recent estimates for carbon. We are 
working on the updates for 2018 and 2019.

          Greenhouse Gas Reduction (CO2 Equivalent per Year) **
------------------------------------------------------------------------
                                        CO2 Sequestered (in millions of
                Year                             metric tons)
------------------------------------------------------------------------
                   2012                                    42
                   2013                                    38
                   2014                                    37
                   2015                                    35
                   2016                                    34
                   2017                                    34
------------------------------------------------------------------------
** Annual estimate.

    Question 9. Administrator Fordyce, can you provide a figure for the 
number of outreach and town halls meetings field staff have conducted? 
At the national level, how are you informing producers of the various 
state level sign up timelines, in addition to their county and state 
email lists?
    Answer. As of November 25, 2020, FSA offices have conducted an 
estimated 2,585 outreach activities nationwide specific to CRP. This 
includes meetings, participation in conferences, webinars, workshops, 
newsletters, and text messages. FSA relies heavily on partner 
organizations and community-based organizations to assist in 
publicizing signups and deadlines. We often post stakeholder toolkits 
on our online stakeholder page so partners may include program messages 
in their publications, social media platforms, and newsletters to 
members.

    Question 10. Administrator Fordyce, can you comment on concerns 
that by moving SAFE to the general sign up that has a lower rental rate 
and less allowance for incentive payments that it is less likely 
producers will apply for the SAFE program?
    Answer. General CRP Signup 54 had over 95 percent of offers 
submitted under State Acres for Wildlife Enhancement (SAFE) that were 
accepted. USDA will continue to monitor signup under CRP and revisit 
any administrative latitude as necessary to encourage additional signup 
where appropriate and possible. Stakeholders had an opportunity to 
submit new and modified proposals for SAFE that would allow for 
potential increases in SAFE acres. States have been notified of 
approvals and disapprovals of those submissions. Newly approved SAFE 
projects will be deployed in Continuous Signup 55 and the upcoming 
General Signup 56.

    Question 11. Can you explain why FSA chose to only offer practice 
incentive payments at 5% of the total cost of the practice rather than 
your statutory authority of up to 50%?
    Answer. As we make administrative decisions related to implementing 
programs like CRP, our guiding principle is to ensure that we meet the 
conservation goals of the programs and ensure that we are implementing 
in a way that will not compete for land against new farmers and 
ranchers who are critical to the future of American agriculture. Our 
decisions are facts-based and data-driven, with a decision-making 
mindset that is customer-focused. We have set incentive levels with the 
goals of the program in mind and an understanding of the current demand 
for CRP. We will be carefully monitoring enrollment and adapting our 
decisions under the law to ensure we meet program goals and best serve 
producers.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Administrator Fordyce, what is the status of SHIPP (3-5 
year contracts) and when can we expect the Department to announce a 
signup period? What's the rental rate that you will paying on these? I 
am also hearing that SHIPP may be limited to the Prairie Pothole 
Region, rather than the Prairie Pothole States as expressly authorized 
in the farm bill. Can you clarify what the plans are?
    Answer. On February 24, USDA issued a news release announcing the 
Soil Health and Income Protection Program (SHIPP), a new pilot program 
under the Conservation Reserve Program that enables farmers in the 
Prairie Pothole region to receive payments for planting cover crops on 
their land. SHIPP was made available to producers in Iowa, Minnesota, 
Montana, North Dakota, and South Dakota within the Prairie Pothole 
Region during a signup that started March 30, 2020 and end November 20, 
2020.* Through SHIPP, producers have the option of 3, 4, or 5 year CRP 
contracts to establish perennial cover crops on less productive 
cropland in exchange for payments. This pilot enables producers to 
plant cover crops that, among other benefits, will improve soil health 
and water quality while having the option to harvest, hay and graze 
during certain times of the year. Rental rates vary by county and are 
established using NASS's Cash Rent Survey. For SHIPP, the 15% or 10% 
rental rate reduction generally applied to CRP contracts is not 
applied, however, all payments under a SHIPP contract have a reduction 
of 50%, with the exception of limited resource, beginning farmer and 
ranchers and socially disadvantaged farmers, who have a 25% reduction. 
Up to 50,000 acres can be enrolled.
---------------------------------------------------------------------------
    * Decision to extend signup was made in August 2020. Signup ended 
November 20, 2020, preliminary results of this signup are 228 offers 
submitted for a total of 3,323.7 acres resulting in estimated annual 
rental payments in the amount of $156,051.

    Question 2. Administrator Fordyce, we hear that some FSA offices 
are open only 1 day a week, sometimes by appointment only. Can you tell 
us how many county offices are only open 1 day a week? How many are 
open 2 days a week? How many are open less than 5 days a week? What 
does this mean for CRP enrollment?
    Answer. FSA currently has 98 of our 2,124 county offices open on a 
part-time basis, less than 40 hours per week. Producers are provided 
contact numbers for county offices and FSA has implemented a process 
that affords all interested producers the opportunity to schedule an 
appointment. Office hours are also publicized and provided on the 
building for producer information. Program signups are on-going and 
widely publicized so that producers and FSA staff can plan and execute 
the needed paperwork by signup deadlines.
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
    Question 1. Administrator Fordyce, thank you for clarifying that 
waivers are available for counties who find themselves above the 25% 
acreage cap and wish to enroll in SAFE. Has guidance regarding this 
waiver process been communicated to field offices? If not, when can 
local FSA offices expect to hear from headquarters on this?
    Answer. FSA State and County offices were provided with the 25 
percent cropland limit waiver process through a notice issued on 
December 6, 2019. The handbook for CRP was issued on December 9, 2019. 
Staff also have been reminded of the process in conference calls during 
general signup.

    Question 2. The 2018 Farm Bill adds a requirement that FSA maintain 
at least 8.6 million acres in continuous CRP (CCRP) enrollment by the 
end of FY 2023. Currently 1.95 million acres are enrolled in SAFE out 
of the 7.82 million acres total in CCRP. How would FSA plan to meet 
this minimum acreage requirement for CCRP if the majority of future 
enrollments in SAFE, which makes up nearly 25% of CCRP acres, is moved 
to general signup?
    Answer. The existing SAFE acres will continue to be categorized as 
continuous enrollment and will be included in the total number of acres 
enrolled through continuous CRP signup. We will continue to conduct 
extensive outreach to ensure producers are aware of the financial and 
environmental benefits of continuous enrollment. USDA will continue to 
monitor signup under CRP and revisit any administrative latitude as 
necessary to encourage additional producers to sign up where 
appropriate and possible.

    Question 3. Administrator Fordyce, you mentioned that ``SAFE-like'' 
practices were available for continuous enrollment. What are these 
practices and how they might provide the same benefits as existing SAFE 
practices?
    Answer. A number of SAFE practices which specifically target water 
quality are still available under Continuous CRP. These practices 
include riparian buffers, filter strips, grassed waterways, contour 
grass strips, prairie strips and wetland restoration practices.
Response from U.S. Department of Agriculture
Question Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question. Can you tell us how your agencies collaborate with other 
USDA agencies like ERS, ARS, and climate hubs?
    Answer. FSA has collaborated with ARS and ERS on numerous analyses, 
many of which are ongoing. FSA is currently working with ARS to 
estimate water quality impacts of CRP/CLEAR practices, buffer 
effectiveness in tile-drained agriculture land, and increasing 
conservation cover establishment success. ERS collaborations include 
nudge and reverse auction experiments to increase CRP efficiency. FSA 
has also collaborated with climate hubs, most recently on expansion of 
the AgRisk Viewer decision support tool.
    The National Ecological Site Team is located in the ARS Jornada 
Experimental Range Facility on campus at New Mexico State University. 
NRCS, ARS and NMSU staff and faculty have collaborated on the 
development and implementation of Ecological Site principles and 
protocols, which are essential for conservation planning, and have 
worked together to develop an online information system that contains 
ecological site information and is connected to other NRCS databases 
and information systems.
    An NRCS staff person is co-director of the Southwest Climate Hub 
located at Las Cruces, New Mexico and the Southwest Climate Hub has 
hosted three NRCS liaisons developing tools for drought management, 
wind erosion assessment, and forage supply forecasting.
Question Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question. Administrator Fordyce and Chief Lohr, is there still an 
effort to co-locate offices in the field? Do you have the flexibility 
to make that work and, how do you make it work in situations where you 
may have a conservation district that is willing to house your 
employees?
    Answer. The Farm Service Agency and the Natural Resources 
Conservation Service are co-located in approximately 2,100 offices 
across the country. Forty-six FSA offices are not co-located and 67 
NRCS offices are not co-located. Together we are working to ensure 
Secretary Perdue's vision to be efficient, effective and offer the best 
customer service in the Federal Government. Therefore, the agencies 
continue to explore co-location opportunities when it is in the best 
interest of producers and is economically feasible. FSA, NRCS, and 
conservation districts are co-located in over 1,900 offices nationally.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. FSA and NRCS have established minimum staffing 
targets--that is--a minimum of 90 percent of the workforce in field 
positions (GS Scale 12 and below) shall be employed at all times. Are 
the agencies currently meeting that goal? If not, when will you be?
    Answer. For FSA, 94 percent of current employees are in field 
office positions GS-12 and below. NRCS allocates 90 percent of staff to 
state and field offices and 10 percent to agency headquarters. Total 
NRCS staff on board as of February 15, 2020 was 8,631. Headquarters 
accounts for 836 (9 percent) of these with the remaining 7,854 (91 
percent) allocated to state and field offices. As of PP23, NRCS has 
9,495 onboard.

    Question 2. I know that your agencies have set optimal staffing 
levels at the state-level and at headquarters, can you tell me the 
number of current vacancies compared to those optimal staffing levels?
    Answer. NRCS had an approved ceiling for Fiscal Year 2020 of 
10,445. The total permanent staff on board as of February 15, 2020, was 
8,631. This total is comprised of 777 in Headquarters and Technical 
Centers, and 7,854 in States. NRCS currently has 1,305 vacancies to 
reach the FY21 hiring ceiling of 10,800 total staff.
    FSA had an approved ceiling for Fiscal Year 2020 of 10,293. FSA's 
estimated staffing need of 11,644 is based on staffing data analytics 
but is unable to incorporate forecasted, future workload. FSA had about 
705 vacancies as of Feb. 15, 2020 and currently has 346 as of PP23.

    Question 3. Chief Lohr and Administrator Fordyce, how many African 
Americans do you have in senior leadership at national headquarters?
    Answer. As of February 15, 2020, NRCS African American leadership 
included three (3) members of the Senior Executive Service (SES) in its 
Headquarters and 14 in states as State Conservationists. FSA African 
American leadership included one (1) employee in a state leadership 
position as a State Executive Director.

------------------------------------------------------------------------
                                                              FSA State
                   NRCS           FSA         NRCS State      Executive
               Headquarters  Headquarters  Conservationists   Directors
------------------------------------------------------------------------
      States              0             0              14              1
             Leadership
         SES              3             0               0              0
------------------------------------------------------------------------

Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. The Farm Production and Conservation Business Center 
was meant to streamline the agencies and increase efficiency, but I 
have heard it has actually slowed down the hiring process. What is the 
Business Center's role in the hiring process--including at the county 
level--and how has the Business Center impacted the agencies' ability 
to meet its staffing ceiling?
    Answer. The Farm Production and Conservation Business Center 
(Business Center) Human Resource Division (HRD) works collaboratively 
with hiring managers in both NRCS and FSA to provide technical, 
operational, regulatory and advisory support throughout the hiring 
process. The HRD support role begins when the agency notifies them of a 
hiring need and continues through each step of the process until the 
new employee is on board. HRD provides technical and advisory support 
by developing job descriptions, conducting job analysis, developing 
assessment tools, job opportunity announcements, evaluating candidate 
qualification, applying veteran's preference, developing certificates 
of qualified candidates, making job offers, and on-boarding new 
employees.
    Since the standup of the Business Center in October of 2018, HRD 
has developed and implemented a number of process improvements to 
streamline the recruitment process. This includes automated SF-52s, 
standardized position descriptions, job analysis tools, assessment 
questions and job opportunity announcements. As of PP23, FPAC on-board 
strength has improved since the stand up with a gain of 751 employees 
for total on-board strength of 21,374. [FSA--213; NRCS--477; RMA--0; 
FPAC BC--61]
    For county office (non-Federal) hiring actions, the process remains 
largely the same as it did prior to Business Center standup. FSA has 
established a team of administrative specialists from across the nation 
to focus primarily on non-Federal hiring and assist State Offices 
throughout the process. This team assists with non-Federal job 
announcements, hiring actions and works with county leaders and FPAC-
HRD to fill non-federal roles in a more streamlined manner as 
authorized in Title VII.

    Question 2. In the last year, on average, how long has it taken 
NRCS and FSA to hire new employees, from when the job application 
closes to when an applicant is offered the job?
    Answer. From February 15, 2019, to February 14, 2020, the average 
number of days from when a job application closes to when an applicant 
is offered the position was 33 days for FSA county office positions, 
and 28 days for NRCS and FSA General Schedule field positions.

    Question 3. How many people are currently employed by NRCS and FSA? 
How has that number changed over the last 5 years and 10 years?
    Answer. There are currently 9,495 permanent employees (not 
including interns and temporary staff) employed at NRCS; and 9,588 
permanent employees were employed at FSA. Over the past 5 to 10 years, 
NRCS and FSA have had significant decreases in their on-board staffing 
levels. FSA has about 9 percent fewer staff than 5 years ago, and about 
22 percent fewer than 10 years ago. NRCS has about 7 percent fewer 
staff on-board than five years ago, and about 12 percent fewer than 10 
years ago.
Question Submitted by Hon. Doug LaMalfa, a Representative in Congress 
        from California
    Question. As you may know, USA Rice and Ducks Unlimited formed the 
Stewardship Partnership. One of the benefits of that working 
relationship has been joint projects through the Regional Conservation 
Partnership Program (RCPP). These projects not only protect our natural 
resources but also provide financial assistance to producers for 
installing important conservation practices. Can you talk about the 
importance of these types of relationships and can you give us an 
update on RCPP and the role RCPP can have in our conservation toolbox?
    Answer. The Rice Stewardship project has been a standout RCPP 
project. It exemplifies the goal of RCPP for NRCS to work 
collaboratively with partners on natural resource challenges of mutual 
interest. In addition, the resources that USA Rice, Ducks Unlimited and 
other partners have brought to the project have expanded our collective 
ability to have a positive conservation impact on rice farms in 
multiple States.
    The Agriculture Improvement Act of 2018 established RCPP as a 
standalone program with its own authorized funding. Unique among NRCS's 
farm bill programs, RCPP provides partners with opportunities to direct 
NRCS funding toward solving critical natural resource challenges. In 
addition, the Act puts a new emphasis on the reporting of conservation 
outcomes for RCPP projects, and includes provisions highlighting the 
potential for innovation through RCPP. In many ways, RCPP and our 
partners will be breaking new ground and informing conservation 
activities across NRCS's farm bill programs.
Questions Submitted by Hon. K. Michael Conaway, a Representative in 
        Congress from Texas
    Question 1. Section 2504 of the 2018 Farm Bill gave USDA interim 
authority to operate the conservation programs under the 2014 Farm Bill 
regulations for the remainder of the last fiscal year. The purpose was 
to continue conservation delivery while working towards implementation 
of the 2018 Farm Bill changes. Can either of you further comment on the 
importance of this authority?
    Answer. We appreciate the flexibility from Section 2504, which 
allowed FSA and NRCS to implement programs immediately following 
enactment of Farm Bill programs while developing regulations. For the 
Conservation Reserve Program (CRP), FSA was able to continue to enroll 
environmentally sensitive lands in CRP, while promulgating the CRP 
regulations. NRCS was able to continue servicing producers through its 
farm bill programs, including its major programs, the Environmental 
Quality Incentives Program, the Conservation Stewardship Program, the 
Agricultural Conservation Easement Program and the Regional 
Conservation Partnership Program in FY 2019 while developing applicable 
regulations.

    Question 2. The Committee has heard concerns FSA might need to 
extend the current deadline for CRP general signup past February 28. 
With concurrent sign-ups for ARC and PLC, does FSA need an extension in 
order to meet the demand from landowners for these various programs?
    Answer. FSA is utilizing data analytics to monitor ARC/PLC 
enrollment, as well as CRP enrollment. In addition, each State 
Executive Director was instructed to create a plan of operation to meet 
all enrollment deadlines. This included specifying resource needs 
relating to hiring additional temporary employees and overtime. General 
CRP Signup 54 was not extended, however, States were able to utilize 
registers for any producer that the county office was not able to 
service by the last day of signup. Producers listed on registers were 
able to complete the offer process after the February 28 deadline and 
were ranked with all other offers submitted during the signup period.

    Question 3. The 2018 Farm Bill states that USDA may provide EQIP 
payments for water conservation scheduling. The accompanying report 
goes on to state that USDA should recognize remote telemetry data 
systems for irrigation scheduling as a best management practice. I 
sincerely hope that NRCS' irrigation efficiency conservation practice 
standard is updated to incorporate this important water and energy 
saving tool.
    What is NRCS' timeframe for updating its conservation practice 
standards?
    Answer. On March 11, 2019, NRCS published a notice in the Federal 
Register announcing its review of the conservation practice standards 
found in the National Handbook of Conservation Practices and provided a 
45-day comment period to receive input from the public about how best 
to improve these conservation practice standards. NRCS has considered 
this public input as it revised its conservation practice standards and 
provides notice of such revisions in the Federal Register. More 
particularly, NRCS has updated its Conservation Practice Standard code 
449 Irrigation Water Management Practice, as part of this comprehensive 
review of all NRCS Practice Standards and language has been added that 
explicitly recognizes remote telemetry data systems inclusion. Language 
was added that explicitly recognized remote telemetry data systems with 
cloud-based irrigation scheduling capabilities as a best management 
practice. On October 23, 2019 the practice standard was published in 
the Federal Register for a 30-day public review and comment period. 
Following the review and response period, the updated code 449 was 
published on September 30, 2020, in the NRCS National Handbook of 
Conservation Practices for implementation. The September 30, 2020 
edition of code 449 reflects the aforementioned computerized irrigation 
scheduling method within the standard.

    Question 3a. How does NRCS plan to educate states and growers about 
changes to its conservation practice standards and about the benefits 
of technology such as cloud-based remote telemetry data systems for 
irrigation scheduling?
    Answer. As NRCS conservation practice standards are updated, new 
fact sheets explaining the additions, are created and posted on our web 
sites. Training sessions at the State Office level and aided by our 
National Technology Support Centers are created and implemented across 
the country. Often new updates are the subject of professional meeting 
presentations to ensure we keep the field office staff as well as 
farmers and ranchers up to date on our best science and conservation 
efforts.

    Question 3b. Is NRCS working to incorporate water conservation 
scheduling payments for technology such as cloud-based irrigation 
scheduling tools into its EQIP regulations?
    Answer. NRCS incorporated the statutory changes about water 
conservation projects that include water conservation scheduling, water 
distribution efficiency, and soil moisture monitoring practices as part 
of the updates to the EQIP regulation. NRCS typically does not include 
specific details on how practices will be implemented in the program 
regulations so as to not inadvertently limit actions that would 
otherwise assist in treating a resource concern. Therefore, the EQIP 
regulation defers to the practice standards for the requirements 
participants must implement in order to receive a program payment.
Questions Submitted by Hon. Trent Kelly, a Representative in Congress 
        from Mississippi
    Question 1. What percentage of EQIP and CSP funding is being used 
for Technical Assistance (TA)? How does this compare to recent years?
    Answer. Technical assistance has been 27.1 percent of EQIP funding 
and 20.4 percent of CSP funding for each year since 2017.

    Question 2. Can you speak to the potential of public-private 
partnerships and how they can complement your agency's delivery system? 
Congress made changes to the Technical Service Provider program to 
streamline and provide more flexibility to work with the private sector 
especially in such areas as precision agriculture. How is this effort 
going?
    Answer. NRCS has historically utilized public-private partnerships 
to deliver conservation to the nation's farmers and ranchers. 
Provisions like the Technical Service Provider (TSP) and the Regional 
Conservation Partnership Program enable NRCS to expand the reach of 
technical resources.
    We have a two phased plan to streamline the TSP program. For phase 
1, we will be taking immediate actions to streamline the program within 
the abilities of the current management software (techreg). For phase 
2, we are in the process of migrating to a new system (TSP registry) 
which will open up additional streamlining options. We are putting 
together a TSP advisory committee to help us review and implement 
additional streamlining opportunities.
    At the same time, we intend to put out a solicitation for third 
party review of alternative certification opportunities and how best to 
incorporate them into the TSP program. A draft solicitation is working 
through the clearance process.
Questions Submitted by Hon. Dusty Johnson, a Representative in Congress 
        from South Dakota
    Question 1. What was the reasoning behind the decision to limit 
practice incentive payments to 5% of the cost of the practice rather 
than the statutory authority of up to 50%. It seems Congress gave you a 
guide in authorizing the 50% cap. Comparatively, the 5% seems awfully 
low.
    Answer. As we make administrative decisions related to implementing 
programs like CRP, our guiding principle is to ensure that we meet the 
conservation goals of the programs and ensure that we are implementing 
in a way that will not compete for land against new farmers and 
ranchers who are critical to the future of American [a]griculture. Our 
decisions are facts-based and data-driven, with a decision-making 
mindset that is customer-focused. We have set incentive levels with the 
goals of the program in mind and an understanding of the current demand 
for CRP. We will be carefully monitoring enrollment and adapting our 
decisions as possible under the law to ensure we meet program goals and 
best serve producers.

    Question 1a. The 2018 Farm Bill created a new authority in EQIP 
known as ``Conservation Incentive Payments.'' This simplified 
contracting authority is intended to target natural resource concerns 
in specific regions of a state and serve as a more flexible and 
scalable alternative to CSP. I have had many inquiries from 
constituents on how they can provide input on the resource concerns and 
the practices that should be applied.
    Can you provide any guidance on how best to provide locally-led 
input for this new authority?
    Answer. NRCS relies on input from State Technical Committees, and 
from local Soil and Water Conservation groups, grassroots, locally led 
processes, for determining state priority areas, resource concerns to 
be addressed, practices and activities to be offered, and any other 
technical or financial assistance available to producers in the state.
    Typically, local soil and water conservation districts will hold an 
annual, locally led working group meeting to discuss resource issues 
and priorities at the local (often the county) level. All soil and 
water conservation district meetings are posted to the state public 
notices website (as a minimum) and all are open to the public. 
Constituents may provide feedback through their local soil and water 
conservation districts. Additionally, constituents can write or contact 
their NRCS State Conservationist if they are unable to meet with their 
local soil and water conservation district.

    Question 1b. Additionally, how is NRCS educating producers on the 
availability of this new authority?
    Answer. We are still working through a number of issues associated 
with this new authority. Additionally, NRCS business tools are under 
development to ensure EQIP participants under incentive contracts are 
held to incentive contract rules and not general EQIP rules regarding 
contract and payment limitations and minimum contract length 
provisions. NRCS will begin approving incentive contracts in calendar 
year 2021. NRCS will conduct outreach efforts at the local and state 
levels to ensure producers will understand how the provisions will be 
implemented at the local level.

    Question 1c. The EQIP regulation requires the Chief to identify 
``high priority areas'' for Incentive Contracts. Will this limit 
eligible producers and land from being enrolled?
    Answer. The EQIP regulation requires that every region of a state 
be included in a high priority area. This may consist of a single area 
encompassing the entire state, or the state may be split into different 
regions. This will allow all eligible producers to apply for EQIP 
incentive contracts. Producers also maintain the option to apply for 
other available EQIP opportunities.

    Question 2. Congress authorized language in the 2018 Farm Bill that 
emphasized the protection of sources of drinking water throughout the 
conservation title. The language also illustrated the potential of USDA 
and drinking water utilities working collaboratively to protect 
something that is a basic human need, clean drinking water. Can you 
update us on how the Department is implementing this farm bill language 
and talk a little bit about the potential for this collaborative 
relationship?
    Answer. The Natural Resources Conservation Service (NRCS) has been 
working diligently with the American Water Works Association, the 
Source Water Collaborative, the Environmental Protection Agency, local 
drinking water utilities, and State Technical Committees to address 
this issue. To date, NRCS has identified high priority geographic areas 
of consideration for accelerated conservation investments in 48 states. 
NRCS has also provided guidance to State Conservationists on 
identifying critical conservation practices within these targeted 
watersheds for elevated payment rates. State Conservationists are 
working with their State Technical Committees to identify which 
conservation practices, within their respective states, are best suited 
to address the potential pollutants of concern. To emphasize the 
importance of this issue, Chief Lohr hosted partnership representatives 
of the Source Water Collaborative at a recent National Leadership Team 
meeting to help facilitate relationships that will help make this focus 
a success.

    Question 3. The 2018 Farm Bill included very clear language 
requiring USDA to allocate 60 percent of available acres each year in 
accordance with historical state enrollment rates. Can you tell us more 
about FSA's plans to implement this provision, and how you will ensure 
states with high levels of historical CRP acreage are not adversely 
impacted by changes to ranking criteria and other policy changes?
    Answer. The 2007-2016 state enrollment rates have been calculated 
and used to identify the historic proportion of acres in each state. In 
any given year, the current distribution of acres will depend on how 
many acres are expiring relative to how many new enrollments are 
offered in a particular state. While FSA cannot control how many offers 
will be made, we keep track of the total available acres for enrollment 
each year. In general, we expect that the distribution of general 
signup offers will follow historical enrollment patterns, and that many 
of the contracts expiring this year will be re-enrolled. FSA assesses 
the current year allocations, considering the balance between both 
general and continuous signup enrollments. FSA closely monitors 
enrollments to ensure that 60 percent of available acres stay within 
the historical enrollment rates to the maximum extent practicable.

                                  <all>
</pre></body></html>
